<html>
<title> - EARTH'S THERMOMETERS: GLACIAL AND ICE SHEET MELT IN A CHANGING CLIMATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                         EARTH'S THERMOMETERS:
                       GLACIAL AND ICE SHEET MELT
                         IN A CHANGING CLIMATE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2019

                               __________

                           Serial No. 116-35

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-916PDF             WASHINGTON : 2020
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia

                         C  O  N  T  E  N  T  S

                             July 11, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    10

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written statement............................................    11

                               Witnesses:

Dr. Richard B. Alley, Evan Pugh Professor of Geosciences and 
  Associate of the Earth and Environmental Systems Institute, 
  Pennsylvania State University
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Robin E. Bell, PGI Lamont Research Professor, Lamont-Doherty 
  Earth Observatory, Columbia University
    Oral Statement...............................................    28
    Written Statement............................................    31

Dr. Twila A. Moon, Research Scientist, National Snow and Ice Data 
  Center's Cooperative Institute for Research in Environmental 
  Sciences
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Gabriel J. Wolken, Research Scientist and Manager, Climate 
  and Cryosphere Hazards Program, Division of Geological & 
  Geophysical Surveys, Alaska Department of Natural Resources
    Oral Statement...............................................    58
    Written Statement............................................    60

Dr. W. Tad Pfeffer, Fellow, Institute of Arctic and Alpine 
  Research, University of Colorado Boulder
    Oral Statement...............................................    67
    Written Statement............................................    69

Discussion.......................................................    78

             Appendix I: Answers to Post-Hearing Questions

Dr. Richard B. Alley, Evan Pugh Professor of Geosciences and 
  Associate of the Earth and Environmental Systems Institute, 
  Pennsylvania State University..................................   110

Dr. Robin E. Bell, PGI Lamont Research Professor, Lamont-Doherty 
  Earth Observatory, Columbia University.........................   116

Dr. Twila A. Moon, Research Scientist, National Snow and Ice Data 
  Center's Cooperative Institute for Research in Environmental 
  Sciences.......................................................   120

Dr. Gabriel J. Wolken, Research Scientist and Manager, Climate 
  and Cryosphere Hazards Program, Division of Geological & 
  Geophysical Surveys, Alaska Department of Natural Resources....   123

Dr. W. Tad Pfeffer, Fellow, Institute of Arctic and Alpine 
  Research, University of Colorado Boulder.......................   126

            Appendix II: Additional Material for the Record

Letter submitted by Representative Suzanne Bonamici, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   130


                         EARTH'S THERMOMETERS:



                       GLACIAL AND ICE SHEET MELT



                         IN A CHANGING CLIMATE

                              ----------                              


                        THURSDAY, JULY 11, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Johnson. Good morning. This hearing will come to 
order. And without objection, the Chair is authorized to 
declare recess at any time.
    I'd like to welcome our witnesses to the Science, Space, 
and Technology Committee's hearing entitled, ``Earth's 
Thermometers: Glacial and Ice Sheet Melt in a Changing 
Climate.'' It seems as though we're bombarded on an almost 
daily basis with news articles and reports saying that the 
world's ice is melting faster than ever. As a matter of fact, I 
almost invited Mr. Young from Alaska, who moved to Alaska 
because it was too warm in the United States proper. Since I 
read about Alaska last week, I thought he might want to hear 
this.
    Pictures show ice sheets in Greenland and Antarctica 
crashing into the oceans before our eyes. Just last month, a 
piece of ice the size of the State of Delaware broke off 
Antarctica, and Greenland was reported to have experienced the 
biggest June ice melt event on record with temperatures 40 
degrees above normal.
    The rate of change in the Arctic and Antarctic has been 
quickening in recent years, according to the Intergovernmental 
Panel on Climate Change (IPCC) and numerous other scientific 
bodies. For example, a study published in Nature in January 
that was led by an international team of more than six dozen 
researchers tells us that melt rates have more than tripled in 
western Antarctica in the last 25 years.
    Mountain glaciers are also experiencing rapid rates of 
change. Just a few weeks ago, declassified U.S. spy satellite 
data clearly showed that Himalayan glaciers lost 25 percent of 
their ice over the last 40 years. This is equivalent to 8 
billion tons of water each year. This puts the hundreds of 
millions of people in that region who depend on glacial melt as 
a freshwater source at risk.
    According to the 2014 IPCC Assessment Report, without 
significant reductions in global greenhouse gas emissions, 
mountain glaciers will lose 35 to 85 percent of their ice by 
the end of the century under a high emissions scenario. Newer 
reports indicate that IPCC estimates might even be conservative 
and that glacial and ice sheet melt rates could even be higher. 
We need to be listening to Earth's glaciers and ice sheets and 
what they're telling us about the changing climate.
    Glacial and ice sheet melt is responsible for two-thirds of 
the 8 inches of sea-level rise that we've seen in the last 200 
years from the anthropogenic warming, and that sea-level rise 
is only expected to continue. The western Antarctic ice sheet, 
which everyone is watching because it is thought to be the most 
unstable ice sheet, could add another 11 feet of additional 
sea-level rise if it collapses, which some experts expect could 
happen at some point. Such an increase would mean many coastal 
cities would be flooded, and the world as we know it would be 
different.
    What's happening in Greenland, Antarctica, and the high 
mountain regions matters to us all. Glaciers and ice sheets 
play vital roles in regulating Earth's climate and weather, 
provide over two-thirds of the Earth's freshwater supply for 
drinking and agricultural uses, support fisheries and ecosystem 
health, and run hydropower plants. I'm glad we have the 
opportunity to hear today from some of the Nation's leading 
glacial and ice sheet experts.
    And I'd like to welcome Dr. Richard Alley, who last 
testified before this Committee in 2010. I also want to 
announce that later today we will be hosting a screening of the 
award-winning documentary ``Chasing Ice'' that documents 
changing ice in the Arctic. It will be followed by a question-
and-answer session with two of our witnesses, Dr. Pfeffer, who 
was a scientific advisor to the film, and Dr. Moon. The 
screening is free and open to the public, and I hope all of you 
will join us.
    This Committee plays an important role in authorizing both 
climate science and the research needed to better understand 
glaciers and ice sheets. Since the 1990s, NASA's (National 
Aeronautics and Space Administration's) ice-monitoring 
satellites have led to major discoveries of ice sheet dynamics 
and melt, while the National Science Foundation (NSF) has 
funded major field expeditions in ice sheets. I look forward to 
today's discussion with our distinguished panel to understand 
how Congress and the Committee in particular can address the 
critical research gaps in this field.
    Thank you.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning. I would like to welcome our witnesses to the 
Science, Space, and Technology Committee's hearing entitled 
``Earth's Thermometers: Glacial and Ice Sheet Melt in a 
Changing Climate.''
    It seems as though we're bombarded on an almost daily basis 
with news articles and reports saying that the world's ice is 
melting faster than ever. Pictures show ice sheets in Greenland 
and Antarctica crashing into the oceans before our eyes. Just 
last month, a piece of ice the size of Delaware broke off of 
Antarctica, and Greenland was reported to have experienced the 
biggest June ice melt event on record with temperatures 40 
degrees above normal.
    The rate of change in the Arctic and Antarctic has been 
quickening in recent years, according to the Intergovernmental 
Panel on Climate Change and numerous other scientific bodies. 
For example, a study published in Nature in January that was 
led by an international team of more than six dozen researchers 
tells us that melt rates have more than tripled in Western 
Antarctica in the last 25 years.
    Mountain glaciers are also experiencing rapid rates of 
change. Just a few weeks ago, declassified U.S. spy satellite 
data clearly showed that Himalayan glaciers lost 25% of their 
ice over the last 40 years. That is equivalent to eight billion 
tons of water each year. This puts the hundreds of millions of 
people in that region who depend on glacial melt as a fresh 
water source at risk.
    According to the 2014 IPCC Assessment Report, without 
significant reductions in global greenhouse gas emissions, 
mountain glaciers will lose 35 to 85% of their ice by the end 
of the century under a high emissions scenario. Newer reports 
indicate that the IPCC estimates might even be conservative and 
that glacial and ice sheet melt rates could be even higher.
    We need to be listening to Earth's glaciers and ice sheets 
and what they're telling us about the changing climate. Glacial 
and ice sheet melt is responsible for two-thirds of the 8 
inches of sea level rise we've seen in the last 200 years from 
anthropogenic warming, and that sea level rise is only expected 
to continue. The Western Antarctic Ice Sheet, which everyone is 
watching because it is thought to be the most unstable ice 
sheet, could add another 11 feet of additional sea level rise 
if it collapses, which some experts expect could happen at some 
point. Such an increase would mean many coastal cities would be 
flooded and the world as we know it would be different.
    What's happening in Greenland, Antarctica, and in high 
mountain regions matters to us all. Glaciers and ice sheets 
play vital roles in regulating Earth's climate and weather, 
provide over two-thirds of Earth's freshwater supply for 
drinking and agricultural uses, support fisheries and ecosystem 
health, and run hydropower plants. I'm glad we have the 
opportunity to hear today from some of the nation's leading 
glacial and ice sheet experts. We're lucky to have five 
distinguished glaciologists here today, and I would like to 
welcome back Dr. Richard Alley, who last testified before this 
Committee in 2010.
    I also want to announce that later today we will be hosting 
a screening of the award-winning documentary Chasing Ice that 
documents changing ice in the Arctic. It will be followed by a 
question and answer session with two of our witnesses, Dr. 
Pfeffer (FEFF-er), who was a scientific advisor to the film, 
and Dr. Moon. The screening is free and open to the public, and 
I hope you can join us.
    This Committee plays an important role in authorizing both 
climate science and the research needed to better understand 
glaciers and ice sheets. Since the 1990s, NASA's ice monitoring 
satellites have led to major discoveries of ice sheet dynamics 
and melt, while the National Science Foundation has funded 
major field expeditions to ice sheets. I look forward to 
today's discussion with our distinguished panel to understand 
how Congress, and this Committee in particular, can address the 
critical research gaps in this field. Thank you.

    Chairwoman Johnson. And I now will offer our Ranking Member 
his opening statement time.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
hearing, which is another opportunity to examine the impacts of 
a changing climate on our country and the world at large. While 
today's hearing will examine the underlying science of this 
issue and concerns about climate change, I'd like for us to 
also focus on the agricultural, economic, and geopolitical 
consequences we can expect from glacial and sea ice melt and, 
more importantly, how we can address those.
    For instance, polar ice sheets cool ocean currents, which 
affect global weather patterns. As I've mentioned a time or 
two, weather issues are of paramount importance to farmers and 
ranchers in Oklahoma and around the world. We do not have a 
firm grip on how these weather patterns will change due to 
melting and how we can prepare for these changes.
    I also want to consider the economic and geopolitical 
consequences of glacial and sea ice melt. Five countries, 
including America and Russia, border the Arctic. Territorial 
disputes in this region will take on greater importance as 
resource-rich land and new shipping routes are revealed.
    There are significant economic implications from the energy 
rights, mineral deposits, and tourism opportunities. For 
instance, Russia is claiming that some newly accessible routes 
should not be considered international waterways but a part of 
their sovereign territory. Better research will give us greater 
insights into how we can expect shipping routes to change so we 
can prepare to address these issues.
    As the Science Committee, we have a responsibility to 
address our national research priorities, and those must be 
broader than just how the climate's changing. We need to 
understand the specific effects so we can adopt and continue 
our economic growth.
    During our first full hearing of this Congress, Members of 
the Committee discussed how we could embrace a broader 
portfolio of basic research, energy innovation, and competitive 
technology to make energy production cleaner, more efficient, 
and less costly. I hope we can spend more time considering 
research into innovative technologies like nuclear reactors, 
battery storage, and carbon capture.
    I'd like to thank our witnesses for being here today, and I 
look forward to our discussion. And I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Chairwoman Johnson, thank you for holding this hearing, 
which is another opportunity to examine the impacts of a 
changing climate on our country and the world at large.
    While today's hearing will examine the underlying science 
of this issue and concerns about climate change, I'd like for 
us to also focus on the agricultural, economic, and 
geopolitical consequences we can expect from glacial and sea 
ice melt and-more importantly-how we can address those.
    For instance, polar ice sheets cool ocean currents which 
affect global weather patterns. As I've mentioned once or 
twice, weather issues are of paramount importance to farmers 
and ranchers in Oklahoma and around the world. We do not have a 
firm grasp of how these weather patterns will change due to 
melting and how we can prepare for these changes.
    I also want to consider the economic and geopolitical 
consequences of glacial and sea ice melt. Five countries, 
including America and Russia, border the Arctic. Territorial 
disputes in this region will take on greater importance as 
resource-rich land and new shipping routes are revealed.
    There are significant economic implications from the energy 
rights, mineral deposits, and tourism opportunities. For 
instance, Russia is claiming that some newly accessible routes 
should not be considered international waterways but part of 
their sovereign territory. Better research will give us greater 
insight into how we can expect shipping routes to change so we 
can prepare to address these issues.
    As the Science Committee, we have the responsibility to 
address our national research priorities and those must be 
broader than just how the climate is changing. We need to 
understand its specific effects so we can adapt and continue 
our economic growth.
    During our first full committee hearing of this Congress, 
members of this Committee discussed how we must embrace a broad 
portfolio of basic research, energy innovation, and competitive 
technology to make energy production cleaner, more efficient, 
and less costly.
    I hope we can spend more time considering research into 
innovative technologies like nuclear reactors, battery storage 
and carbon capture.
    I'd like to thank our witnesses for being here today, and I 
look forward to our discussion.

    Chairwoman Johnson. Thank you very much.
    I'd like to extend a warm welcome to a guest in the 
audience, Maria, from Chandler, Arizona. Could you stand? We 
hear you're a rising senior in high school who's interested in 
studying engineering in college. And it's great to have the 
next generation of STEM (science, technology, engineering, and 
mathematics) professionals represented here today. And welcome 
to all the young people over here, too. Thank you for being 
here.
    At this time I'd like to introduce our witnesses. Our first 
distinguished witness, Dr. Richard Alley, is the Evan Pugh 
Professor of Geosciences and Associate of the Earth and 
Environmental Systems Institute at the Pennsylvania State 
University. He has spent more than 40 years studying the great 
ice sheets to help predict future changes in climate and sea 
levels, and has made four trips to Antarctica, nine to 
Greenland, and additional expeditions to Alaska and elsewhere. 
He has authored or co-authored more than 300 scientific papers. 
He was involved in the IPCC group of contributors that won the 
2007 Nobel Peace Prize. He won Pennsylvania State's highest 
teaching award, and has written a book on climate change and 
ice cores. He holds a Ph.D. in geology from the University of 
Wisconsin.
    Our second witness, Dr. Robin Bell, is the PGI Lamont 
Research Professor at Lamont-Doherty Earth Observatory of 
Columbia University and a member of the faculty at Columbia 
Earth Institute. She directs programs in ice sheet dynamics, 
leads efforts to develop innovative technology, and works to 
improve the scientific culture, especially for women. She has 
led 10 major expeditions to the polar regions discovering an 
active volcano, large, deep lakes, and hidden mountain ranges 
buried by ice. She was instrumental in launching the 
International Polar Year in 2007 that brought together over 
50,000 scientists. Currently, she is the President of the 
American Geophysical Union, the largest collection of Earth and 
space scientists in the world. And her Ph.D. is in geophysics 
from Columbia University.
    Our third witness is Dr. Twila Moon, who is a Research 
Scientist at the National Snow and Ice Data Center (NSIDC), 
part of the University of Colorado's Boulder Cooperative 
Institute for Research in Environmental Sciences. She studies 
modern changes in glaciers and ice sheets and the connection 
among ice, climate, ocean, and ecosystems. Her research focuses 
on the Greenland ice sheet and the Arctic and uses a variety of 
tools, including satellite remote sensing, fieldwork, and 
computer simulations. She also leads efforts to improve science 
and knowledge coproduction between scientists and stakeholders. 
Dr. Moon received her Ph.D. in Earth and space sciences from 
the University of Washington.
    Our fourth witness, Dr. Gabriel Wolken, is a Research 
Scientist and Manager of the Climate and Cryosphere Hazards 
Program at the Alaska Division of Geological & Geophysical 
Surveys and a Research Assistant Professor at the International 
Research Center at the University of Alaska Fairbanks. There, 
he is a Senior Scientist in the Climate Adaptation Science 
Center. He studies snow and glacier change and their connection 
to climate and natural hazards through observations, remote 
sensing, and computer modeling. Dr. Wolken has a Ph.D. in Earth 
and atmospheric sciences from the University of Alberta.
    Our final witness, Dr. William Ted Pfeffer, is a Professor 
of Civil, Environmental, and Architectural Engineering and a 
Fellow at the Institute of Arctic and Alpine Research at the 
University of Colorado Boulder. He has been involved in 
glaciology research for 40 years, studying the world's mountain 
glaciers. He has conducted hundreds of field expeditions in the 
continental USA, Alaska, Canada, Norway, Greenland, Antarctica, 
the Himalayas, and Africa. He has published over 60 peer-
reviewed scientific papers and was a scientific advisor to the 
Emmy-winning film ``Chasing Ice.'' Dr. Pfeffer earned his Ph.D. 
in geophysics at the University of Washington.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record of the hearing. When all of you have 
completed your spoken testimony, we will begin a round of 
questions. Each Member will have 5 minutes to question the 
panel. And so we will begin our witnesses now with Dr. Alley.

               TESTIMONY OF DR. RICHARD B. ALLEY,

             EVAN PUGH PROFESSOR OF GEOSCIENCES AND

            ASSOCIATE OF THE EARTH AND ENVIRONMENTAL

        SYSTEMS INSTITUTE, PENNSYLVANIA STATE UNIVERSITY

    Dr. Alley. Thank you, Madam Chairwoman, Ranking Member 
Lucas, distinguished Members, staff, and citizens, for this 
opportunity to address you.
    We have high scientific confidence that the world is 
warming primarily because we burn fossil fuels and release 
CO<INF>2</INF>, and this is having broad-based impacts. You've 
asked us to tell you about changes in snow and ice of which we 
will get to some of them but not all.
    We still have winter, we still have blizzards. Where and 
when snow and ice care about temperature we are seeing broad-
based shrinkage, and this really is having impacts. Earlier 
spring snow melt means that you can lengthen the fire season. 
It affects ecosystems; it affects tourism. Loss of Arctic sea 
ice, as Representative Lucas mentioned, has national security 
implications, as well as weather implications. Glacier melt is 
changing streamflow in some of the most overused and 
politically sensitive rivers on Earth.
    I will focus particularly on sea level, which is the 
biggest global footprint of melting ice. Sea level is rising. 
Recently, it's been about 1 inch per 8 years. It is rising not 
because of natural cycles but because of warming. The ocean 
expands as it warms. The mountain glaciers are melting. The 
edges of Greenland are melting and putting extra water into the 
ocean. And there's faster flow of non-floating ice into the 
ocean from parts of Greenland and Antarctica.
    We are committed to some additional sea-level rise. Just as 
if you drop an ice cube into your tea, it is committed to 
melting, but it takes a while to melt. The ice has not caught 
up with the warming we have already caused. But by the time our 
students are getting old, the decisions that we humans make now 
and in the future will grow to be the dominant control on how 
much sea-level rise we experience.
    This sea-level rise is already having implications. You can 
Google the picture of the octopus in the parking garage in 
Miami on a high tide, not a storm. But the impacts could become 
much larger. The general projections are that if we don't 
change our energy system, we will get something like 3 feet of 
sea-level rise by 2100 above the natural level, the pre-
industrial level.
    And I'd like to speak about the uncertainties in that, 
right? So I'd like to do an analogy first. I ride my bicycle to 
work at Penn State. My wife drives our car. But I drove down 
here. I saw commuters in the D.C. area. My impression is that a 
commuter in D.C. expects to spend half an hour stuck in 
traffic. The best thing that can happen to a commuter is no 
traffic, but they might spend an hour, and they might get run 
over by a drunk driver and be in the hospital or worse. What 
they expect, the most likely future, is well on the good end of 
the possible futures when you get in that car.
    When we look at the sea-level rise, it is similar. Three 
feet if we don't change our energy system, maybe 2, maybe 4, 
maybe 5, 10. We're not sure. It could be much worse. And there 
isn't much better to offset the much worse. There are drunk 
drivers in the climate system.
    I'd like to explain one of them. If you ever get the chance 
to go to Glacier Bay National Park and Preserve in Alaska, it 
is a gloriously beautiful place. You can cruise 65 miles up the 
Bay and see little glaciers breaking off little icebergs in 
shallow water, and it's still spectacular. When Vancouver was 
on his cruise in 1796, there was no Glacier Bay. It was 
entirely full of ice up to a mile thick. When John Muir went 
by, less than a century later, the Bay was mostly open because 
icebergs had been breaking off the front of the glacier like 
dominoes at a rate of up to 7 miles a year, falling over.
    That process has happened to other glaciers in Alaska. You 
have world experts on that process here. It has happened in 
Chile, in Svalbard. It's happening in Greenland and the 
Antarctic Peninsula. It happened to ice sheets in the past. And 
it's well-known that this happens when it gets too warm where 
ice flows into the ocean. So far, those have been in narrow 
valleys. They're spectacular locally but one collapse doesn't 
raise global sea level a lot. If this starts to happen in parts 
of Antarctica rather than a narrow valley, it will open into a 
broad embayment. If that breaks as rapidly as we have seen 
elsewhere, in the next century you might get 10 feet or so of 
extra sea-level rise. It could be faster than that.
    It is very clear that the uncertainties can be reduced if 
you fund bright young people to work with the co-panelists up 
here. That's self-serving, but it's correct. But there may be a 
little irreducible uncertainty in the same way that you can 
never predict where every drunk driver might be out on the 
highway. If we raise temperature, we raise sea level with high 
confidence, and the uncertainties are it could be a little 
better, a little worse, or a lot worse. Thank you.
    [The prepared statement of Dr. Alley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Johnson. Thank you very much. Dr. Bell.

                 TESTIMONY OF DR. ROBIN E. BELL,

                   LAMONT RESEARCH PROFESSOR,

                LAMONT-DOHERTY EARTH OBSERVATORY,

                       COLUMBIA UNIVERSITY

    Dr. Bell. Thank you very much. Chairwoman Johnson, Ranking 
Member Lucas, Members of the Committee, I'm very pleased to be 
here today. I'm going to take you on a visual tour because the 
ice sheets are beautiful. I think that's why we all study them. 
And we want to share a little bit of that beauty with you, so 
this is a picture of what Antarctica looks like. And just to 
give you a sense of scale, this is a huge iceberg with tiny 
scientists in front of it.
    What I'm going to show you today is the evidence for 
change. I will tell anyone this who stops me anywhere on the 
street--you stop me on my electric motorcycle, I'm going to 
tell you this story. There are three signs of change--three 
really clear signs that the ice sheets are speeding up and 
changing. One is they're moving faster. In the 1990s, they were 
moving 1 mile a year. In the 2000s, they're moving 2 miles a 
year. They've doubled in speed.
    Ice happens to be like the mozzarella cheese on top of your 
pizza, so when you bite into the cheese and stretch it, it gets 
thinner. So the second measurements we've made is by zapping 
the ice sheet with a laser, and that's what you see forming is 
that yellow on the surface is actually where the elevation, 
just like the cheese is getting stretched, the ice sheet is 
getting stretched, that's more than half a football field of 
stretching where the ice sheet is getting lower, second 
measurement.
    Our third measurement is one we make and NASA makes with 
partners--makes from space. Can we turn the video on--animation 
on, please? You will see that this is Antarctica again--now 
we're looking at a whole map of Antarctica, and you're going to 
see a red dot develop. And what that red dot is showing we're 
actually losing mass. And remember I showed you it sped up, it 
lowered. This is a different measurement. This is basically the 
ice sheet on the bathroom scale. And what you can see is the 
ice sheet is losing mass predominantly in that place that 
Richard referred to, the place that's furthest north and 
exposed to the warming ocean. The ice sheet is losing mass.
    We could show you the same things for Greenland, three very 
clear signals, kind of the scientific gold standard. We like to 
make independent measurements. This is the evidence that the 
ice sheets are changing.
    What does it mean? We go next to NOAA (National Oceanic and 
Atmospheric Administration) and we look at NOAA's global 
collection of tide gauges--so these are really high-tech 
instruments. They're like pipes stuck in the water, OK? But 
they measure the tides going up and down and up and down, and 
they measure storms--the tide levels go way up, 12 feet in New 
York during Sandy. But you can see most of those are going up. 
Sea level almost everywhere on the planet is going up except 
where the planet is still recovering from the ice sheet that 
was more than 20,000 years ago and it's bouncing back up like a 
mattress. But this predominant signal globally is it's going 
up.
    There's even one of those fancy pipes right here in 
Southeast, Washington, and that record goes back to about when 
my dad was born. And so since my dad was born right here in 
Washington, D.C., sea level has gone up a foot. And we're using 
Beth for scale here. Beth is, for today's purposes, 2 meters or 
6 feet roughly. And you can see, sea level has risen almost a 
foot, almost to my knee--I like to think of it--I put my hand 
on my leg because then I realize what it really means. That's 
how far sea-level has come up since my dad was born.
    So what does that mean? We are working on this problem--I'm 
back to the uncertainty question. Can I tell you how much sea-
level is going to go up in the next hundred years? We are 
working on it as hard as we can. This is just a range of 
forecasts published this year. You can see the results--they 
are spread. This is again Beth for scale, about 6 feet. They 
range a lot. But when we looked--that's what we're working on 
is how to be able to tell our communities how much is sea level 
to go up in the next hundred years because that's what we're 
building infrastructure. The big bridge we just spent $4 
billion on close to my house needs to know what we're going to 
plan for sea level. Are we going to plan for a couple feet or a 
lot more?
    So when we look at the glacier melt budget altogether, 
Antarctica is in the next hundred years is on the order of 
maybe over our knees, maybe a little bit more. Greenland is 
going to be in there, too. We're going to have warming oceans, 
and we're going to have mountain glaciers. And while I have 
this as roughly 4 feet, 3 feet, we don't know. This is cutting-
edge research.
    And what can we do to improve it? There's a priority of 
three ideas in my mind--there's three important things to do. 
One is get up close and personal to the ice sheets. We need to 
understand better how the ice sheets work so we can improve our 
models. We used to not be able to have very good models of 
weather. We do much better now. So number one is get up close 
and personal.
    Second is we need to invest in the workforce. Right now, 
there are 1,400 scientists at the AGU who are affiliated with 
ice. Do you know there are 140,000 people enrolled in law 
school every year? We just don't have enough people working on 
this. We need more scientists, engineers, educators, creative 
minds like Maria over there. We need to talk her into studying 
ice somehow.
    And we also need to look at how convergent science works. 
We need to figure out how to pull together the work that we do, 
which is on the polar caps, to what's happening at the 
coastlines around the planet because we kind of need an ice 
sheet person in every community because we need to understand 
what the community needs to respond to.
    So am I hopeful? Yes, I am hopeful because we are in a 
unique place as a species that we know how the ice sheet works, 
we know how sea level rises--we are understanding how our 
planet works. And we, as scientists, we're all members of the 
American Geophysical Union. We're actually putting our money 
where our mouth is. We have a building here in Washington that 
we just renovated, so it is the first net-zero renovation 
building in Washington. That means we're taking less energy 
than we are generating, more energy than we are using to run 
this building. We'd love to have you come visit. And we're also 
very happy to look forward and that this is a time for action 
among all of us, and we need to bring everybody to the table. 
Thank you very much.
    [The prepared statement of Dr. Bell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Johnson. Thank you very much. Dr. Moon.

                 TESTIMONY OF DR. TWILA A. MOON,

              RESEARCH SCIENTIST, NATIONAL SNOW AND

             ICE DATA CENTER'S COOPERATIVE INSTITUTE

             FOR RESEARCH IN ENVIRONMENTAL SCIENCES

    Dr. Moon. Chairwoman Johnson, Ranking Member Lucas, Members 
of the Committee, thank you for the opportunity to testify 
today.
    Land ice loss has serious consequences within the United 
States and across the globe, and I'm honored to share my 
scientific expertise with the Committee.
    Glaciers and ice sheets are Earth's water towers. Only 2.5 
percent of the world's water is fresh water, and most of that 
fresh water is contained within glaciers and ice sheets or land 
ice. As Earth's water towers, glaciers are valuable sources of 
drinking water, irrigation water, and hydropower. But land ice 
is now melting at a rapid and accelerating pace, increasing 
risks for hundreds of millions of people who depend on them for 
survival and prosperity. And it is raising sea levels across 
the globe.
    Today, land ice loss is the biggest contributor to sea-
level rise. Sea-level rise can contaminate drinking water, 
erode coasts, overwhelm stormwater and wastewater systems, and 
cause increased or permanent flooding. Over just the last 25 
years, average sea level around the globe has already risen 3 
inches. But because sea-level rise is not evenly distributed, 
some areas like regions of the U.S. Gulf Coast and eastern 
seaboard are already dealing with more than double this amount.
    The impacts we are facing today, however, may pale in 
comparison to the changes we could experience in the future. If 
we continue on our current path of high greenhouse gas 
emissions, it's reasonable to expect 2.5 feet or more of sea-
level rise in the next 80 years. In regions of the Gulf Coast 
and the eastern seaboard, that number will be significantly 
higher.
    The Greenland ice sheet, which is more than 2 miles thick 
in its center and covers an area the size of Texas, California, 
Arizona, and Nevada combined is an important player in sea-
level rise. Since the early 2000s, ice loss from Greenland has 
increased rapidly, and Greenland is now a primary player in 
land ice contribution to sea-level rise.
    The cause of ice loss is clear. Greenland and glaciers 
around the world are melting and more rapidly spilling their 
ice into the sea as a direct result of warming air and warming 
ocean water due to manmade greenhouse gas emissions. During the 
last 2 decades, the science community has made substantial 
strides in understanding Greenland ice sheet behavior and 
projecting future ice loss. But for any given future greenhouse 
gas emissions pathway, there is still a large range in 
projections for how much ice Greenland will lose.
    Narrowing the range of future possibilities and our 
projections of them is possible. The United States can lead by 
supporting targeted research on the physical processes that 
control ice sheet behavior by developing systems to collect 
long-term observations and by fostering iterative research that 
connects observations and computer models. Science will also 
advance more quickly and better serve the public good if strong 
connections are fostered among scientific disciplines and 
between scientists and stakeholders. You can ensure this 
happens by increasing coordinated opportunities for interagency 
funding and actively funding activities that bring together 
scientists and decisionmakers.
    Finally, I want to emphasize a critical difference in the 
roles of science and policy in addressing land ice loss and its 
impacts. Increasing scientific knowledge is essential to more 
accurately project what the future is likely to bring given 
that we are on a particular emissions pathway. But policy has 
the power to determine which emissions pathway we take. 
Embarking on a lower-emissions strategy will make a fundamental 
difference in how much and how quickly land ice disappears. 
U.S. leadership on mitigating greenhouse gas emissions within 
our lifetimes will reverberate to positively impact the world 
for millennia.
    Thank you for giving attention to this important topic. You 
have the power to make a difference between a manageable future 
and a painful one. I look forward to supporting you with 
complete and accurate science and to answering your questions.
    [The prepared statement of Dr. Moon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Johnson. Thank you very much. Dr. Wolken.

               TESTIMONY OF DR. GABRIEL J. WOLKEN,

             RESEARCH SCIENTIST AND MANAGER, CLIMATE

           AND CRYOSPHERE HAZARDS PROGRAM, DIVISION OF

                GEOLOGICAL & GEOPHYSICAL SURVEYS,

             ALASKA DEPARTMENT OF NATURAL RESOURCES

    Dr. Wolken. Good morning. Chairwoman Johnson, Ranking 
Member Lucas, staff, and Members of the Committee on Science, 
Space, and Technology, thank you very much for the invitation 
to come speak to you today.
    As a citizen, I'm very pleased to be here. And I 
congratulate you on selecting this topic to consider. As a 
scientist, it means very much to me to be here to speak to you 
about evidence-based decision making, the data that we have to 
talk to you about today on glaciers and ice sheet change.
    I live in Alaska, and Alaskans are very in touch with their 
surroundings. The cryosphere is that place on Earth where water 
is in its solid form, so snow, ice, and permafrost. Recently, 
while doing some fieldwork near Valdez, Alaska, it looks much 
like what you're seeing today. And so Valdez is in a fjord. It 
used to be covered by ice. Now the ice is melting quickly.
    Upon completing a bathymetric survey or mapping the lake 
surface below the water near Valdez glacier, we were at the 
shoreline and reviewing our data and very happy about what we 
discovered because now we can start to find out how much water 
in the lake has contributed to the melting of the glacier that 
terminates into it. A woman and her dog named Elvis, a 
slobbering basset hound, came up to us and she says, what are 
you doing? And I said, well, we're trying to find out how deep 
the lake is. She said it's 600 feet deep. We looked at each 
other and said you're absolutely right. We just used $25,000 in 
equipment to figure that out. What did you do? She and her 
friend went out in a canoe and lowered a rope. And they 
discovered that the rope wasn't long enough, so they paddled 
back to shore and grabbed the rope. And then they tied the 
extra rope onto it, lowered it down, and they discovered that 
it was 600 feet deep near the glacier.
    Now, she is a Valdez resident for 30 years. She said this 
glacier is melting faster than anything I've seen in the area. 
Where does all this water go? Well, the answer to that is in 
the oceans. And so Alaskans are keenly aware of their 
environment. They're keenly aware of the changes.
    This same woman lives in an area where outburst floods 
impact her house every single year. The glacier releases 
tremendous amounts of water, rips out the dike, challenges the 
bridge, and gives them an opportunity to see the power of 
change. So the cryosphere is changing in Alaska, and glaciers 
are a part of that. It's very important for us to understand 
what is happening.
    In Alaska we have a very large State. It's one-fifth the 
size of the rest of the United States. It's huge. We have 
thousands and thousands of glaciers. We know changes physically 
on three of those glaciers. We have mass balance data that 
began back in 1966. And with those data, we are able to 
understand how glacier change is happening over long-term. That 
is incredibly valuable to us.
    So most of the information that we have today is built on 
the shoulders of giants and the data that they were able to 
start collecting a long time ago. It's important that we start 
that process now. So collecting data now in various places in 
state means that we can evaluate and quantify the amount of 
change that we have between now and whenever we're worried 
about the change. We do this so that we can build better 
computer simulations so that we can plan.
    As policymakers and decisionmakers, it is imperative to 
have the right scientific information, and we cannot provide 
that without the money, without the funding, without the 
students, without the resources to be able to provide the 
information that is necessary for local stakeholders such as 
the woman in Valdez and her dog, as well as important federally 
mandated decisions that have to be made in this country. So 
evidence-based decisionmaking is what we are after in order to 
have sound change and be able to communicate to the local 
residents such as those in Valdez and Alaska so that we can 
actually start planning for some of these changes. Thank you.
    [The prepared statement of Dr. Wolken follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Johnson. Thank you very much. Dr. Pfeffer.

                TESTIMONY OF DR. W. TAD PFEFFER,

        FELLOW, INSTITUTE OF ARCTIC AND ALPINE RESEARCH,

                 UNIVERSITY OF COLORADO BOULDER

    Dr. Pfeffer. Along with my colleagues, I'd like to thank 
you all, Chairwoman Johnson, Ranking Member Lucas, all the 
Members of the Committee and staff.
    Like my colleagues, I was pleased, surprised, jumped at the 
opportunity to come and talk to you today about subjects that 
I've spent two-thirds of my life on. I've spent a long time 
living on glaciers and have had a good opportunity to see the 
changes and study them.
    As Chair Johnson mentioned, I'm a glaciologist. I've done 
this for 40 years, and I've had opportunities to work in 
landscapes that have changed dramatically over time mostly in 
Alaska. I work mostly on the small glaciers of the world, the 
200,000 glaciers other than the Greenland and Arctic ice 
sheets. And I want to talk mostly about them, and I really want 
to come back and focus on Alaska, which is one of the hotspots 
in the world both literally and figuratively in sea-level rise 
but also in fresh water flowing into the ocean, in fires and 
environmental change in the coastal regions.
    These small glaciers matter for a wide variety of reasons, 
and I also want to try to concentrate today on the reasons that 
have direct ties to the United States. There are a number of 
global issues. Water resources, water availability from the 
Himalayas, for example, is going to be critical for Nepal, 
India, Pakistan, Bhutan, places like that. They also produce 
significant geo-hazards of landslides, flooding, what we call 
outburst flooding as glaciers retreat and leave behind very 
unstable steep slopes. When this happens in places like Nepal, 
these are very unstable landscapes in the same valleys where a 
lot of people live. It's one of the reasons that these hazards 
are as great as they are in the Himalayas. It's because we've 
got the mountains there, glaciers changing, and also people 
living in that landscape. That's one of the reasons that that's 
not quite so much of a problem in the United States because we 
are not obliged to live right next door to glaciers in most 
places, not at all.
    They also have significant environmental impacts by 
changing the temperature of the waters the glaciers drain into 
and by changing the salinity of the water. One of the effects 
of Alaska that we don't understand particularly well yet but we 
know it's there is the fact that the ice sheet or the glacier 
runoff from Alaska that flows into the Gulf of Alaska and the 
Pacific, works its way up through a gap in the Aleutian Islands 
and enters the Arctic basin. And it turns out that that's quite 
a large chunk of the fresh water entering the Arctic basin, and 
that fresh water influences, among other things, the extent of 
sea ice in the Arctic.
    We don't have a good handle on how much that flow is in 
part because we're not making comprehensive measurements of the 
water flow into the Gulf of Alaska from glaciers. As my 
colleague Dr. Wolken mentioned, we're not monitoring the 
glaciers in Alaska very well. We're not really keeping track of 
them. So while we can see that they're melting, we can measure 
their height change or we could up until recently anyway, we 
don't have good observations of where the water is going. We 
don't have good gauges measuring that flow.
    One of the last things that I want to come back to in my 
statement again, though, is sea-level rise. As Dr. Alley 
pointed out, the ice sheets contain virtually all of the fresh 
water that's locked up on land in ice. You take all the other 
glaciers, about 200,000 glaciers, you only get about a foot of 
sea-level rise out of them if you put them all into the ocean. 
But they're like a big bucket with a little tiny--sorry, 
they're like a small bucket with a big hole in it. That water 
is leaving the small reservoir very fast. In effect, if you 
look at the combined most recent measurements of where new 
water coming into the ocean is coming from, more than 50 
percent of it is coming from these small glaciers, and the 
remaining smaller percentage is coming from the ice sheets.
    Now, that's right now. That's in the short term. The longer 
term, the ice sheets are certainly going to take over. But in 
the short term--and this is a term, say, on the order of 30, 
40, 50 years where decisionmakers, planners, policymakers 
really need to have the most robust information, and they need 
the greatest handle on uncertainties. We have to look at the 
entire picture, the ice sheets and the glaciers and all of 
their consequences of which sea-level rise is just one.
    So I'll stop there for now and be happy to continue and 
answer your questions.
    [The prepared statement of Dr. Pfeffer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Johnson. Thank you very much. That completes the 
testimony of our witnesses. We'll now begin our first round of 
questions. And I'll yield myself 5 minutes.
    While a lot of progress has been made in understanding 
current trends in glacier and ice sheet melt rates and 
predicting future changes, uncertainties still exist and the 
potential for tipping points. Whether major parts of the Arctic 
or Greenland sheets will collapse and when and how much more 
sea levels will rise is yet still out there.
    So for all of the witnesses, as top experts in the field, 
what are the most pressing needs in glacier research in order 
to address these uncertainties? And the second question, given 
the differing impacts of glacier and ice sheet melts on global 
sea-level rise, ocean temperature and salinity, nutrient 
cycling and ocean currents, fisheries, and even geopolitical 
tensions from diminishing drinking water supplies, how can 
multidisciplinary research approaches help address some of the 
outstanding questions? And we can start and just go down the 
panel.
    Dr. Alley. OK. Thank you. You raise huge and important 
issues. You will hear several things as we go along here which 
are important. I'd like to highlight the people. The students 
who can really solve these problems have an amazing number of 
calls on them. They can go to business, they can go to finance, 
they can do all sorts of things. They have skills that are 
hugely in demand. We hope that a lot of them go to business and 
go to finance and do useful things out there, but we would love 
to have a few of the best students come to us. If those 
students look at our world and say there isn't funding, there 
isn't a reliable idea that you can make a career in telling the 
public what's going on, they all will go elsewhere. And we 
don't want all of them, but we would really like a few of them. 
And that means funding for studentships and that means some 
level of telling the student if you commit to 4 years as an 
undergrad and maybe 7 years as a graduate student and a bit of 
postdoc to become a world expert on this, we will support you 
in doing that. And it is people. And we need a few of them to 
help us do this.
    Chairwoman Johnson. Thank you.
    Dr. Bell. Well, I think there are three things. As I said 
before, one is fostering more research, and it's research 
across the agencies because the U.S. has really been leading in 
understanding how the ice sheets are changing. And it's 
becoming increasingly important that research, whether it's 
supported by NSF, NOAA, USGS (United States Geological Survey), 
NASA--DOE (Department of Energy) runs a lot of ice sheet 
models. We have to recognize this incredible resource we have 
to be at the cutting-edge of who's going to know and be able to 
provide the answers to communities around the globe.
    I echo Richard's workforce question. We really do need to 
broaden the number of people working on this and not just 
glaciologists. We need engineers. We need computer scientists. 
We need to, you know, recognize that this is a significant 
national security, a national economic issue that requires all 
hands on deck.
    And then the third one is really to foster what NSF is now 
calling convergent science, science where you really bring 
together people from different disciplines focused on a problem 
so that we can address the problem. NSF just released a new 
priority--they're navigating the new Arctic where that was 
really the focus of how do we go in a changing arctic. Now 
getting back to Ranking Member Lucas' question, how do we have 
science that brings together the people who are going to look 
at those problems? And NSF is really trying to foster that 
collaborative problem solving. The word currently is convergent 
where you actually bring people from different disciplines who 
are looking to solve a problem, and that's what we absolutely 
must do, both within the U.S. and globally. This is a problem 
we cannot solve by ourselves.
    Chairwoman Johnson. Thank you. Dr. Moon.
    Dr. Moon. Yes. I'd like to emphasize first better 
understanding the glaciers and ice sheets themselves, the 
physical processes that we don't yet know. We've never been 
able to watch ice sheets collapse, so we can't look back into 
the record. And that requires going there, observing the 
systems, and doing process studies and then integrating that 
information with computer simulations.
    The second thing is that any projects within this need to 
be coordinated with other countries. Sea-level rise, ice sheet, 
glacier melt are international issues, and we need 
international teams working on them. And anything you can do to 
help facilitate international collaboration I think is 
excellent.
    And finally, your question regarding connecting different 
disciplines, this is a very difficult thing to do. Disciplines 
have been separated for decades. It's the way many elements of 
our academic system and our research system are built, and it 
requires long-term investment and an understanding that we have 
to create those relationships because we're taking our 
information about glaciers and ice sheets and we're recognizing 
that they're part of a connected Earth system that includes 
people, as well as plants, animals, and other physical 
components.
    Chairwoman Johnson. Thank you.
    Dr. Wolken. I will echo the comments of my colleagues in 
that we do need people. It's critical that we have people on 
these issues. I'll share with you just an example from one of 
my other projects looking at snow distribution on glaciers in 
alpine areas. We've gone through three people now in a critical 
data science position because they can make more money 
elsewhere. And so it's really hard to retain the people once we 
have them, and it's really challenging to actually recruit 
these people.
    The other issue is, again, I'll emphasize Alaska is one-
fifth the size of the rest of the United States. We have a lot 
of area, and we are data-poor. We have only a handful of long-
term observations in the State, and we have very few long-term 
records. And when I mean long-term I mean beyond 12 years. So 
it's very challenging to work in that environment. And so what 
we really need is more observational information to go off of.
    And, you know, we can do a tremendously better job with the 
science if we have data. The only way to make the models do 
better is to actually have data that drive the models. And so 
we don't have that right now. So we're doing the best we can. 
And one of the most important observation technologies that we 
had on Operation Ice Bridge in the State that measures the 
height of glaciers is now gone. It's been discontinued as a 
program, and so we can't do that anymore.
    And so the other thing I'll say is that I'll echo the 
comments of having a mixed bag of individuals to do critical 
tasks, and it's important for us to have a diversity of 
individuals working on these really important issues.
    Chairwoman Johnson. Thank you very much. Dr. Pfeffer.
    Dr. Pfeffer. Well, after writing down my list of responses 
to your question, I realize that all I really have to say is 
I'm with them. We seem to be pretty much on the same page here, 
and I promise you, we didn't rehearse this in advance. It 
really boils down to people and support to train those people. 
We've got these critical questions, the research questions. One 
of them is the tipping points. What's actually going on in 
glaciers and ice sheets that causes this occasionally very 
anomalous behavior? We can't model that problem out of the way 
with computers or with our knowledge of mathematics and 
mechanics. We actually have to get in--literally in and under 
the glaciers to see what's happening.
    Decades ago when I was--we don't have to run away and leave 
the building, do we? OK. Decades ago when I was a graduate 
student--and Richard will remember this, too--we had programs 
all through the United States with opportunities for graduate 
students to work on small glaciers in Alaska, in the Pacific 
Northwest, and the Scandinavia and Arctic, as well as in 
Greenland and Antarctica where we could go back a number of 
times while we were students, really learn what is happening on 
glaciers. I'd already made 12 trips to Alaska before I finished 
my Ph.D. That's really not happening anymore. Most 
departments--and we have--we've got an abundance of programs. 
We've got a lot of expertise out there searching for students 
trying to bring them in, but we don't have the support to 
really go places to train them. And so we are producing a lot 
of computer modelers, very good, and they're doing very 
important work, but they're waiting for this knowledge to come 
in for them to put into these models. And we're really falling 
behind on that.
    Also, as Dr. Wolken mentioned, we're missing what's 
happening in Alaska. Operation Ice Bridge, which was our best 
way of tracking the loss of glaciers in Alaska, is--that's 
vanished for the time being. And monitoring of fresh water 
flowing into the ocean, we don't know what that is. So we need 
the answers to those questions, but to get the answers, we need 
people.
    Chairwoman Johnson. Thank you very much. I'm way over. Mr. 
Lucas.
    Mr. Lucas. Thank you, Madam Chairwoman. Dr. Moon, let me 
turn to you first, and let's discuss for a moment Federal 
Government spends a lot of money on research, we have a lot of 
research dollars coming out of National Science Foundation, the 
various department agencies, the DOD (Department of Defense). 
We're doing a lot of things. Let's talk for a moment about from 
your experiences what kind of suggestions you have about, in a 
more direct way, how do we make sure that the various Federal 
research activities are better coordinated, integrated, as you 
noted?
    Dr. Moon. Well, I can speak to one example that I think is 
a nice example for how to work on this. This is a program 
called IARPC, the Interagency Arctic Research Policy Committee 
in the Arctic. And that program brings together people who are 
funded and doing work supported by different agencies. They 
have regular webinars, they have regular meetings, and it helps 
people communicate on what's going on. I think having those 
sorts of tools and having communication between agencies at the 
program manager level also encourages us on the research 
scientist level to be able to get information that tells us 
about what different agencies are interested in so that we have 
a sense of the interest, the potential funding, and how they 
might be connected together.
    Mr. Lucas. Thank you. And, Dr. Bell, as I mentioned in my 
opening statement, I have a deep interest in weather patterns. 
I represent the northwest half of the great State of Oklahoma. 
I'm a product of my experiences, but I'm also impacted by the 
experiences of the people who came before me in my district. 
And where we are on the east side of the Rockies and the 
Southern Plains, my area was one of those that suffered 
dramatically in the Dust Bowl of the 1930s, the Great 
Depression.
    But in addition to that horrendous drought, which had a lot 
of government policy and farming practices that enhanced the 
misery, we went through a drought in the 1890s, drought in the 
1930s, drought in the 1950s, the horrendous drought at the 
beginning of this decade. So you understand as a farmer in the 
real world, where I come from, when I asked my questions, how 
much does the scientific community understand about what will 
happen in the lower latitudes weather-pattern-wise by what's 
going on in the glaciers? Do you see where I'm coming from 
here? Because glacial water changes the chemistry of the 
oceans, changes the temperature. I did pay some attention in my 
science portfolio at Oklahoma State.
    Dr. Bell. Right. And one of the predictions, you know, one 
of the very clear predictions from the climate models is we're 
going to see a lot more of those extremes. We're both going to 
see a lot more droughts, and we're likely to see a lot more 
floods--many of your neighbors saw a lot more floods this year 
because we all know we're here in Washington in the summer and 
it is hot and muggy. That is because hot air holds more 
moisture. And in the long run, that's going to make more 
floods. So, you know, in terms of the direct linkage between 
the warming climate and the weather, that's the easiest one to 
think of. We are going to expect more extremes in 
precipitation, and we're going to expect more extremes in 
weather. The direct link between the changing land ice and 
changing climate is something we're still working on is what--
we heard it from Tad Pfeffer is what will that water go into 
the ocean due to the ocean circulation? Where are certainly 
hypotheses out there that the changing sea ice have contributed 
to some of the extreme weather we're seeing now. You know, 
certainly, that's on the table. But again, it's showing how we 
have not decoded the weather system and the climate system on 
our planet, but we can see the impacts already.
    Mr. Lucas. Please, Dr. Alley.
    Dr. Alley. Yes, Representative Lucas, I'm sorry to 
interrupt. As you know, the great State of Oklahoma is 
fantastic in educating meteorologists. And you probably also 
know that there really is scholarship that shows that the 
Federal investment in meteorology pays handsome dividends for 
the well-being of farmers, for the well-being of fisherpersons 
and others and at a level that is a huge payoff on investment. 
And I can give you chapter and verse if you need it.
    There is great optimism now in the community that does 
weather forecasting that we will be able to move into that area 
which would give more warning to the farmers of Oklahoma, the 
fisherpersons of Oregon and Maine as to what's coming. We can't 
guarantee that, but the optimism is real, it's palpable, and 
it's exciting.
    Dr. Bell. And I'm going to just add one thing--I just want 
to follow up with one thought following on Richard's is that we 
have invested a lot in weather forecasting. That's why we now--
I'm not a farmer, I'm a sailor, so I think about hurricanes 
more than droughts. Sorry. But----
    Mr. Lucas. You have waterspouts, we have tornadoes.
    Dr. Bell. Yes. Yes, yes, I do, and I worry about them, too. 
They give me goosebumps. But we've been able to narrow our 
understanding of where those hurricanes are. I can plan much 
better when I hear there's a hurricane coming than I used to, 
and that's because we've invested in weather research, 
everything from the process-based work to the numeric, and 
that's what we don't have for the ice sheets yet.
    Mr. Lucas. Indulge me, Chairwoman. Dr. Wolken, what are you 
telling the State of Alaska about how to handle the 
circumstances in the next decade or so?
    Dr. Wolken. Well, that's a good question. I mean, we have 
some of the best climate modelers in the world at the 
University of Alaska Fairbanks, and they are doing a tremendous 
job in producing downscale climate models for Alaska. Their 
products are only as good as the data that they can use to 
train those, and they've done a tremendous job in predicting 
out to, say, 2100 what the climate is going to be like. From 
that, we can make some estimates of how glaciers are going to 
respond, how the cryosphere in general is going to respond. 
And, you know, the best tools that we can produce are 
available, but we need to improve those tools tremendously in 
order to make better predictions so people can plan.
    Mr. Lucas. Thank you, Doctor. Thank you, Chairwoman.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you, Chairwoman Johnson and Ranking 
Member Lucas. But really thank you to our witness experts who 
are here today. We do appreciate your expertise.
    I'm fortunate because I'm from the Pacific Northwest where 
we still have glaciers and the Cascade Range and the beautiful 
Wallowa mountains in eastern Oregon. And over the years the 
snow and ice masses have really helped delicately balance our 
water temperature and our ecosystems. The nutrient content, 
glacial melt water has provided drinking water, and the runoff 
helps power our communities. Tourism and outdoor recreation are 
really important in our State. People travel to see our 
streams, rivers, and lakes, which the glacial sediment makes 
this iconic teal color. It's a beautiful place. You should all 
come and visit.
    But today, the glaciers that have once filled a lot of the 
hanging valleys and the moraines and the mountaintops across 
some of the most pristine regions are rapidly melting and in 
large part because of anthropogenic emissions.
    On Mount Hood, which we can see from Portland in my home 
State, the Sandy Glacier Caves were once the largest glacier 
cave system in the lower 48 States, but now, the glacier is 
melting at an alarming rate. And further north of Oregon at the 
Columbia River basin at Glacier National Park, they're losing 
the geologic features that provided its namesake. In fact, when 
it was founded in 1910 the park had about 150 glaciers. And 
according to a study from Portland State University and the 
USGS the park is on track to lose its remaining 26 glaciers in 
the next few decades.
    Dr. Moon, thank you for your testimony. You mentioned the 
role of glaciers in sustaining ecosystems, and in northwest 
Oregon the expedited rate of melting of glaciers could have 
significant consequences for our salmon and steelhead 
populations and threaten recreational and commercial fishing, 
tribe species that benefit from healthy salmon runs. And as the 
glaciers melt and the water flows change and the water 
temperatures warm in the Columbia basin, the tributaries, the 
fisheries are threatened. So how quickly are these larger 
ecosystem changes taking place? And are there potential 
adaptation and mitigation strategies that we in Congress can 
support to help at this point in time?
    Dr. Moon. I would say--and you might find, too, some--that 
you have many problems also related to those that are being 
seen in Alaska and receive comments there. Certainly, we are 
losing those glaciers very rapidly. Just as you cited, we are 
seeing retreat and ice loss at rates that have never been seen 
in these areas. And so those fundamental changes that are 
happening rapidly and quickly are changing the ecosystem just 
as quickly. One----
    Ms. Bonamici. Right.
    Dr. Moon [continuing]. Thing to consider is that in many of 
these places we initially see a bump in the amount of water 
because we're getting warmer air temperatures. We still have 
the glaciers there at the moment, so you actually get a bump in 
water availability, and we see communities also in other places 
in the world where they depend even more strongly on glaciers 
for drinking or irrigation water adjusting to an added level of 
water input, which then of course is eventually going to 
decline substantially to levels below what it was----
    Ms. Bonamici. Right.
    Dr. Moon [continuing]. Previously. So they are rapid 
changes, and I think that there are many places where the 
research is not keeping up with the speed of these changes. 
That's true for us understanding the glaciers and ice sheets 
themselves and also certainly true for understanding the 
ecosystems that depend on it. So I think it may be a case where 
we are changing things that we are not even able to keep up 
with or see the true level of those changes.
    Ms. Bonamici. Thank you. Thank you. I appreciate that very 
much. And a good place for the Science Committee to get some 
more research funded.
    Dr. Pfeffer, some of your colleagues at the University of 
Colorado Boulder published a study in 2017 about the effects of 
dissolved black carbon on glacial melting, that sooty black 
material that's emitted from gas and diesel engines, coal-fired 
power plants, and wildfires is a significant portion of 
particulate matter and contributes to climate change, as we 
know. The study found that the black carbon from the combustion 
of biomass and fossil fuels can enhance glacial melting as 
black carbon deposits on snow and ice surfaces, then the 
particles decrease the Earth's ability to reflect rays from the 
sun, so then that results in the absorption of heat and faster 
melting. But it's also worth noting from the testimony here 
today that even if anthropogenic emissions were halted 
immediately, we'd still see the reciprocal effects on glaciers.
    So, Dr. Pfeffer, what are the most apparent gaps in the 
current modeling of glacial recession for various emission 
scenarios? And assuming that the U.S. achieved a net-zero 
carbon emission policy by midcentury, where should we invest 
more Federal resources in responding to the consequences of 
glacier melting?
    Dr. Pfeffer. So the process that you bring up, black 
carbon, it's hard to see when you're actually out there. It's 
quite a subtle effect but very small particulate matter, which 
is carried into the air, and this was particularly a problem 
prior to the collapse of the Soviet Union because there was a 
lot of coal burning industry in Siberia. It's far enough north 
for their emissions to get trapped in this atmospheric gyre in 
the Arctic. That's reduced a little bit but not by a large 
degree. And emissions from further south still get into the 
Arctic basin and also elsewhere. Not all of Greenland is in the 
Arctic basin, for example. Southern Greenland is exposed to air 
masses that come off of Europe and North America, so there's a 
lot of mixing. And this material continues to be deposited.
    I think that understanding the surface energy balance, 
things like if you make the surface of an ice sheet just a tiny 
bit darker, how much effect will that have, that understanding 
is pretty well in hand but we need observations. Simply knowing 
that it happens isn't enough. I really do think, though, that 
the basic needs go beyond that to simply making the 
observations. There are so many parts of the world that were, 
until recently, really in the dark. A lot of high mountain 
Asia, Himalayas and other ranges, that's been partially 
addressed by remote sensing, but again, not all of it. Some of 
this work just has to be done on the ground.
    Ms. Bonamici. Thank you. And I see I'm out of time, but, 
Chairwoman Johnson, I request unanimous consent to enter into 
the record this study from the University of Colorado.
    Chairwoman Johnson. Without objection.
    Ms. Bonamici. I yield back. Thank you.
    Chairwoman Johnson. Thank you. Mr. Brooks.
    Mr. Brooks. Thank you, Madam Chairwoman.
    Is anyone on the panel not familiar with the Earth's last 
glacial maximum, roughly 20,000 years ago? OK. Everybody is? 
Good. For those in the audience who are not, by way of 
background, during the last glacial maximum, northern Europe 
was under ice, roughly 90 percent of Canada and almost all of 
the Continental United States of America north of Missouri and 
the Ohio Rivers and east of New York City under ice. According 
to the United States Geologic Survey, during the last glacial 
maximum, again, 20,000 years ago, sea levels were roughly 410 
feet lower than today. Stated differently, for 20,000 years, 
sea levels have risen on average 2 feet per century versus the 
much less roughly 1 foot per century rising rate since 1993 
that is reflected in Dr. Alley's written testimony.
    Finally, per Zurich University of Applied Science, Earth's 
average temperature 20,000 years ago was 48+ F versus 59+ F 
today. That's an 11-degree increase in global temperature 
average over the last 20,000 year period.
    So my question to each of you is, and we'll start over here 
with Dr. Pfeffer and move from my right to left, did human 
beings cause the global warming that started 20,000 years ago 
and continues through today or, if not, what did?
    Dr. Pfeffer. So the examples from 20,000 years ago that Mr. 
Brooks gave us, they are excellent examples of the kind of 
natural variability that the Earth experiences. And there's no 
question that in the past, there have been changes in 
temperature and sea-level rise and weather patterns and climate 
generally as dramatic or more dramatic than what we may be 
experiencing in the future. And of course they weren't human-
caused 20,000 years ago or in the last million years. All of 
these variable events have been occurring throughout the 
Earth's modern history.
    Mr. Brooks. Well, my first question, in your judgment, did 
human beings cause the global warming that began 20,000 years 
ago during the last glacial maximum?
    Dr. Pfeffer. No. No, absolutely not. It's an example of 
spontaneous natural variability, one of the many ways that this 
whole system, whether you look at it in terms of sea-level rise 
or temperature, storms, can be varied.
    Mr. Brooks. Are you familiar----
    Dr. Pfeffer. Natural----
    Mr. Brooks [continuing]. With the phrase snowball Earth or 
slush ball Earth----
    Dr. Pfeffer. Oh, yes. Yes.
    Mr. Brooks [continuing]. Roughly 600 million years ago----
    Dr. Pfeffer. Yes.
    Mr. Brooks [continuing]. When we were almost entirely ice 
or slush?
    Dr. Pfeffer. Entirely natural variation.
    Mr. Brooks. Versus the Paleocene and Eocene thermal maximum 
of about 55 to 56 million years ago when the average 
temperature was roughly 73+ F, which is 14 degrees warmer than 
what we are experiencing now.
    Dr. Pfeffer. Yes.
    Mr. Brooks. If you don't mind, Dr. Wolken, let's go to you. 
Did human beings cause the global warming that began 20,000 
years ago?
    Dr. Wolken. No, absolutely not. That was just a product of 
natural variability in the climate system. Yes.
    Mr. Brooks. Dr. Moon?
    Dr. Moon. Humans weren't around in nearly the numbers we 
are today, so we certainly weren't available to be combusting 
fossil fuels at the rate we are today or putting emissions into 
the atmosphere. You can consider we've built America in the 
last 243 years, and we're changing things at a much more rapid 
rate.
    Mr. Brooks. So you also agree then that the global warming 
that has occurred over the last 20,000 years, that 11+ F 
increase in temperature was not human caused at least when it 
began 20,000 years ago?
    Dr. Moon. So I would agree that when it began 20,000 years 
ago when we were coming out of the last glacial, that was not 
caused by humans.
    Mr. Brooks. All right.
    Dr. Moon. The warming of the last hundred years most 
certainly was.
    Mr. Brooks. Out of curiosity, how do you explain that the 
sea-level rise average over the last 20,000 years has been 2 
feet per century, yet we're down to 1 foot per century?
    Dr. Moon. So much of our rise in sea levels that you're 
talking about came earlier in that 20,000 years.
    Mr. Brooks. For 6,000 or 7,000 years.
    Dr. Moon. Over this last 10,000 years, we've been sitting 
with very stable sea levels. And those stable sea levels have 
allowed us to develop the coasts of the world.
    Mr. Brooks. All right. Thank you, Dr. Moon. And I only have 
about 30 seconds left for Dr. Bell. Dr. Bell, in your judgment, 
20,000 years ago, global warming when it began, was that caused 
by humans?
    Dr. Bell. In my judgment, the variation that we were seeing 
20,000 years ago was part of the pulse of the planet. It pulses 
at 100,000 year glacial, interglacial. When I started graduate 
school, we were expecting to go into the next glacial period--
--
    Mr. Brooks. Yes.
    Dr. Bell [continuing]. Except that we as human beings in 
the last hundred years--and you can see the kick up--since we 
invented the steam engine, you can see the temperature moving 
up.
    Mr. Brooks. All right. I'm out of time. Madam Chairwoman, I 
appreciate your indulgence. I just wish I had sufficient time 
to actually get into what the cause of the global warming that 
began 20,000 years ago was if not humans. Thank you.
    Chairwoman Johnson. Excuse me. Go ahead, Doctor.
    Dr. Pfeffer. I just wanted to respond a bit further to your 
question. The changes in the past have--there are two 
significant differences between those events and the events 
today. One of them is that they were triggered by natural 
variations, not by human agency.
    And let me just give you an analogy of your house. Your 
house might burn down, and it might burn down for entirely 
natural reasons. It might be struck by lightning. But it could 
also burn down if you're careless and you, you know, drop a 
cigarette in the crack in the sofa. Both of those are triggers 
that result in your house burning down. The presence of one of 
them doesn't really say much about the other except that they 
both lead to the same endpoint.
    The other thing is that while there were these very 
dramatic temperature changes and sea-level rises in the past, 
which were entirely natural, we weren't there to deal with 
them. The problem here is with people. How do we respond to 
environmental change? The Earth will take care of itself. It 
doesn't really care what happens. It's what people do. And if 
this had happened, you know, a long time ago when the 
population of the Earth was a few hundred million, it probably 
wouldn't have mattered either because we could have just gotten 
out of the way. But as it is today with the numbers of people 
that we have and the infrastructure, we're very sensitive to 
changes of this kind. We don't handle change very well.
    For example, suppose that the conditions for growing crops 
that exist today in California picked up and moved to North 
Dakota for a couple of hundred years. There are variations like 
that in the fairly recent geologic past that occurred. How 
would we deal with that? It's an entirely different world than 
what we were not here to experience but we know about 20,000 
years ago. We're much more sensitive. We don't deal well with 
change, and to deal with it, we need to know a lot about it.
    Mr. Brooks. Dr. Pfeffer, thank you for your additional 
insight.
    Chairwoman Johnson. Thank you very much. Mr. McNerney.
    Mr. McNerney. Well, I thank the Chair for calling this 
hearing, and I thank the witnesses. I appreciate all your 
testimony this morning.
    While the planet is continuing to warm up and I believe we 
are going to blow past the 2+ centigrade marker that people say 
is the limit of tolerability, we need to be looking at all the 
potential tools in the climate solutions toolbox, especially if 
we're to take action to prevent the collapse of the West 
Antarctic and Greenland ice sheets. That's why I introduced the 
Geoengineering Research Evaluation Act last Congress. It didn't 
pass, but just introducing that caused the National Academies 
of Science to explore the state of research in climate 
intervention strategies, as well as the need to implement a 
governance structure of those technologies.
    Dr. Bell, given the complexity of the climate system and 
the risks associated with further human interference, how do 
you think the U.S. should approach the field of research on 
climate intervention?
    Dr. Bell. Both the National Academy and AGU, the American 
Geophysical Union, have statements that say this is an issue 
that we must research. If done wrong, it could be terrifying. 
But, again, it is the same problem that we have been saying 
before. We don't have the sufficient workforce looking at the 
issue, evaluating it, and building the body of knowledge to 
evaluate whether or not it is a good idea.
    To me, I come back to the very, very few examples of 
geoengineering of the ice sheets that are out there. And to 
give you the idea of how many groups have done it, I think two 
groups have put it on the table. You know, one is basically for 
one approach--you get a bunch of snow blowers and put more snow 
back on the ice sheet. The problem is it turns out if you put 
snow blowers on the ice sheet, it gets steeper and it flows 
back into the ocean. It didn't work. The other idea is to build 
bigger than the Panama Canal many times walls to keep the ice 
sheets from being attacked by the warming ocean.
    These are ideas being put on the table by a small cadre of 
glaciologists. What this illustrates is that we need, as a 
species, to research this, and we need not just glaciologists, 
not just atmosphere scientists, but we need to bring the full 
suite of talent to the table to think about this because, as we 
address climate change, we're going to probably need to look at 
every tool that we have available. That's what we found when we 
did the building down the street.
    Mr. McNerney. Thank you.
    Dr. Bell. We couldn't reach our goal by doing just one 
thing.
    Mr. McNerney. Dr. Alley, do the risks of abrupt change in 
the Arctic and Antarctica indicate that we should be serious 
about technological interventions such as sunlight reflection 
to maintain stability?
    Dr. Alley. So I would echo what the National Academy and 
what the American Geophysical Union have said, which is that we 
need the knowledge base that will allow you, all of you in this 
learned body, to actually make wise decisions. We don't yet 
have that knowledge base. There are real issues with 
international governance, as you raised, and thank you. There 
are real issues with reception by people. I can tell you 
stories of--geoengineering cloud seeding that led ultimately to 
a professor from Penn State having a hole shot in his car door 
because the local farmers were very unhappy with the idea of 
cloud seeding. Sort of how this plays out into the broader 
populace is sometimes not as obvious and as simple as you might 
imagine. So I think gaining this knowledge base so that you 
would then have the capability of making wise decisions is 
wise.
    Mr. McNerney. Thank you. Again, Dr. Alley, the West 
Antarctic ice sheet has been noted to have the greatest amount 
of uncertainty in the melting and breaking rates. How much of 
the uncertainty related to West Antarctic ice sheet can be 
addressed by additional research, and how much is dependent on 
the future rates of warming?
    Dr. Alley. Right. Certainly, the uncertainty can be reduced 
by the research, but it is already very clear that the faster 
and the more we warm, the more likely a failure will be. So in 
our world mitigation, trying to slow down the warming, buys you 
time. It buys you time to learn. There is always some danger 
with a tipping point that you pass it before you see it, and 
it's too late to slam on the brakes. It's too late to turn and 
avoid the iceberg. And very rapid warming, that becomes more 
likely for West Antarctica as we run at the future.
    Mr. McNerney. Well, what are some of the--Dr. Bell 
perhaps--what are some of the major concerns about the collapse 
of the West Antarctic ice sheet?
    Dr. Bell. The major concerns are that it could go fast, and 
we don't actually know how fast. It's back to the ice sheet we 
know there used to be an ice sheet in New York and many of the 
States here. We didn't see that one collapse or the residents 
of New York then who didn't record what was happening. So we as 
a species don't have the record of how an ice sheet collapses, 
so we worry about how it collapsed--what happens to the ocean, 
how the ocean chews at the bottom of it as the ocean warms. We 
worry about what happens when the surface melt, where does that 
water go? Does it fall into cracks and act like a jackhammer to 
open it up, or does it run off like a river? There are some 
major fundamental understandings about how warming air, warming 
ocean impacts ice. And in that sentence alone you see how we 
have to have different disciplines talking to each other.
    Dr. Alley. So Dr. Moon is working on this problem in 
Greenland, and Dr. Pfeffer is working on this problem in 
Alaska, as is Dr. Wolken, so the truth is the--what we learn 
spreads broadly.
    Mr. McNerney. Well, I hope the other three panelists don't 
feel neglected, but I only have 5 minutes, so I'll yield back. 
Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Babin.
    Mr. Babin. Yes, ma'am.
    Chairwoman Johnson. Changing of the guard.
    Mr. Babin. All right, musical chairs. Sorry about that.
    Dr. Wolken, in addition to serving here on the Science 
Committee, I also serve on Transportation and Infrastructure. 
And I represent southeast Texas and have four ports in my 
district. I recognize the importance of our navigational ship 
channels.
    With that being said, one of the things I find very 
interesting on this topic that's relevant to my Committees and 
my district is the possibility of two trans-Arctic commercial 
shipping routes that are opening up. This isn't to say that I 
want to see all the glaciers melt and the sea levels rise 
uncontrollably, but if there are inevitable changes, I want to 
make sure that the United States is positioned to be 
economically fortified. And I know that the Russians are 
certainly exploiting newly opened up shipping lanes, ice-free 
zones, and even claiming certain areas that were considered in 
international waters are no longer that but belongs to Russia.
    So how do you see the Department of Transportation or even 
the U.S. Coast Guard interacting with coordinated multi-agency 
collaboration that you say is needed?
    Dr. Wolken. Yes, thanks for the question. I'll answer in 
two ways. The first is that what you speak of is really an 
incredibly important issue and, you know, economics and 
national security really do come to mind. And that's a sea-ice 
issue in the north, principally. And reduced sea ice of course 
is offering opportunities to enter into the Arctic and explore 
and ship, and that comes with fantastic opportunities of course 
and a lot of perilous conditions that could cause lots of 
environmental damage if not done right.
    Having a multi-agency approach is incredibly important a 
little bit farther south. And you mentioned the Coast Guard. We 
have changes in Alaska that are impacting many of the fjords 
and the transportation routes in the South, and some of the 
changes in the cryosphere or changes in the snow, the ice, and 
the permafrost in the mountains are unpredictable to us right 
now. We don't have enough information. And so the Coast Guard 
communicating with various universities and agencies about how 
stable the slopes are, about how fast conditions are changing 
in certain areas could really be an asset to the Coast Guard as 
they respond to emergencies or possible disasters from cruise 
ships or fishing boats in different areas.
    I will point out an example in 2015, there was one of the 
world's largest snow/rock avalanches into the Tyndall fjord, 
and in the process of that collapse, the tsunami that resulted 
from the rock falling into the fjord was enormous. It caused a 
trimline like the bathtub ring that was around 600 feet high. 
And any fishing boat caught in that or Coast Guard vessel or 
tourist ship would have been destroyed.
    Mr. Babin. Right.
    Dr. Wolken. So communication about the data that we have to 
the individuals who will be working in these different areas, 
Federal agencies such as the Coast Guard, it's critical that we 
have this conversation.
    Mr. Babin. Absolutely. Thank you very much. And one other 
question. Some experts have predicted that our currently 
available mapping and navigation and ship capabilities are 
going to limit just how frequently and successfully we use 
these potential routes. And, Dr. Wolken, and to all of our 
witnesses, when conducting research on ice depth and volume, is 
there also efforts to improve commercial shipping potential 
such as data needed for mapping? Dr. Wolken, I'll ask you 
first, and then I'll go to Dr. Pfeffer.
    Dr. Wolken. Yes, so a lot of the work that's being done in 
the fjords in Alaska are specifically focusing on the nearshore 
environment, and so the exchange of dynamics of interactions 
between the glaciers and the water in that environment. And so 
in the process of doing that, wonderful maps of the fjord are 
being generated; lots of different surveys of the coastlines 
are being generated in the process. And so the really great 
part about this is that we can have overlapping interests being 
served with good research in the right areas. And I think 
that's where this idea of having these interagency 
collaborations, these multiple perspectives, this team approach 
is really important.
    Mr. Babin. Great. And, Dr. Pfeffer, I think you wanted to 
say----
    Dr. Pfeffer. Yes, I wanted to respond because your 
description of the situation in Texas reminds me a little bit 
of an experience that I had about 5 or 6 years ago where I was 
employed as a consultant for the Prince William Sound Citizens 
Advisory Committee, which is an environmental group that was 
set up in the State of Alaska following the Valdez oil spill to 
provide environmental oversight in Prince William Sound, which 
includes the town of Valdez and southern terminus of the Alaska 
Pipeline. And their specific concern was icebergs.
    The Columbia glacier in Alaska, which is one of the 
glaciers that I've worked on for many years, was a major 
iceberg producer. And those icebergs came out into the shipping 
lanes. And the Alyeska, which is the operating company for the 
Pipeline, and the Coast Guard were both concerned about what 
future iceberg hazards were going to look like. Specifically, 
they had an ice detection radar system that had come to the end 
of its useful lifetime, and they had to replace it. And what 
their specific question was, you know, do we have to be 
worrying about icebergs for the next hundred years or the next 
5 years?
    And so I worked with them for about a 2-year period 
developing some simple models based on how much of the glacier 
was left and our best prediction of what the retreat would look 
like to give them some sense of what the iceberg discharge 
would look like. It was a good opportunity to collaborate with 
a State-level agency and also with the Coast Guard. We have a 
limited amount of bathymetry for that region. It would be good 
to have more, and NOAA has done some surveying in there. But 
that kind of interagency cooperation could be a lot more 
frequent than it is, and when it does happen, it's extremely 
beneficial. It certainly was a great help to us in Alaska.
    Mr. Babin. All right. Thank you. Thank you very much. I 
appreciate it.
    Dr. Bell. I have a quick addition to that in that just last 
summer we saw one of the first groundings--I actually saw the 
vessel before it grounded of a Russian icebreaker that ended up 
grounding in the Northwest Passage, you know, exactly the 
places we're hoping or were thinking may be opportunities for 
more connections across the high Arctic. So it is a critical 
issue because it ran aground on an uncharted rock----
    Mr. Babin. Right.
    Dr. Bell [continuing]. In essence. And the other piece is 
that the Coast Guard provides critical infrastructure to 
support the work we do in Antarctica. Without the U.S. Coast 
Guard and the heavy icebreakers, we could not, the U.S. could 
not run the flagship programs they do. And we are seeing the 
Asian countries invest deeply in icebreakers. The Chinese 
Government has invested in two. The Koreans have a beautiful 
new icebreaker. We need strong ice-breaking capability both for 
ability to engage in the Arctic and continue to be leaders in 
Antarctica.
    Mr. Babin. And we have a shortage of icebreakers, do we 
not?
    Dr. Bell. Yes.
    Mr. Babin. Yes.
    Dr. Bell. That's why I thought this was a moment to remind 
you that----
    Mr. Babin. Yes. Thank you.
    Dr. Bell [continuing]. With science, it's really clear--
boats run aground, and we need icebreakers.
    Mr. Babin. All right. Thank you very much. My time has long 
expired. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair. Thank you all so much 
for being here.
    Earlier this Congress at the Environment Subcommittee 
hearing on the impacts of climate change on our oceans and 
coasts, our experts were talking about what we need to do to 
stay below 1.5 degrees of warming. And I asked them if we got 
rid of all CO<INF>2</INF> emissions tomorrow, how much sea-
level rise is already baked in? And the answer was an 
unequivocal 2 feet. I think that's consistent with your 
testimony, Dr. Alley. That is frightening, but in some ways, I 
have a bigger fear that's the deficiencies of our little Homo 
sapien brand.
    And I want to demonstrate this and I want all of you out in 
the audience, you get to participate now. We're going to do a 
little experiment. So what we're going to do--this is real 
easy. I'm going to say two things. You give me the next in 
order. A, B? A little louder, come on. You got this. This isn't 
hard. Thank you. All right. Second one, 2, 4? You're all wrong. 
I was looking for 8.
    This is the problem, right? We have all of these nonlinear 
trends, and our little brain says 2, 4, 6 and we see all these 
things that are going on. And, Dr. Alley, I think you alluded 
to this in your testimony. And so if 2 feet is baked in and if 
the likely skew of that data is not a bell curve but on the 
more frightening end of the spectrum, what sea-level rise 
should we be planning for within the zone of possibility?
    Dr. Alley. I surely wish I knew. This is a frustration for 
us at a level that is deep and I wake up at 2 in the morning 
and I look at the ceiling and I say what do I tell somebody? I 
can remember coming back from Old Ironsides on the water taxi 
while doing the Freedom Trail in Boston and sitting in the 
water taxi and putting West Antarctica into Boston Harbor and 
not knowing what to do, which is--I mean, I'm sorry, it is very 
self-serving for me to sit here and tell you that funding 
research is good because it might go to me or my students, but 
we want to know.
    Mr. Casten. So I'm not asking you for certainty, and I 
appreciate--look, I started my career doing--I got a master's 
of science in chemical engineering. I get the caution. But 
we've got to sit on this side of the dais and make decisions, 
so I'm just asking if you were in our seats with uncertainty of 
information, what is the range that we should be thinking about 
in our zone of possibility?
    Dr. Alley. Yes. Don't go below the IPCC and start thinking 
about flexibility. Think about adaptive capability, the----
    Mr. Casten. I'm just asking for like a number of feet.
    Dr. Alley. Yes, I can't give you a number.
    Mr. Casten. How about a----
    Dr. Alley. I wish I could.
    Mr. Casten. How about a timing? How long do we have before 
2 feet is locked in?
    Dr. Alley. Yes, very soon if not and, so for the 2 feet, 
you're getting close. But the big numbers, it really is, you 
know, I mean, a good businessperson looks for the black swan, 
but they don't know when a whole flock of black swans is 
coming, and so they really do look to their best people to be 
ready, which is here. You know, that's you.
    Mr. Casten. I want to get to a couple other things in my 
time, but the reason I ask this question is in part because the 
same day that we had that hearing--I sit on Financial Services. 
We had Federal Reserve Chairman Powell in, and I said to him we 
just had this hearing. You are responsible for helping us write 
30-year mortgages. Do you factor in whether or not those 
mortgages are going to be paid off in low-lying coastal areas? 
And the answer was that he thought we probably should start 
thinking about that but we haven't yet.
    We have a whole host of issues here that go just beyond 
whether the sea level's a little higher, right? We got housing. 
I live in Illinois where we've got, you know, polar vortex 
because--and polar bombs or whatever the term is of this year 
because, as that ice melts, we're destabilizing global weather 
flows and shifting that cold air down temporarily until we all 
get a lot hotter.
    Dr. Wolken, I had a little fun doing a little Googling on 
the weather report on Moose Mountain where you live. I 
understand you got a huge unseasonable amount of rain a few 
hours ago. I understand that is pretty positive because you've 
got some concerns up there. Can you just help explain to me 
what's happening on Moose Mountain that makes that rain good 
and how that is related to the falloff in sea ice?
    Dr. Wolken. Wow, that's a really good question. I will 
preface this with some history about the winter. It was a very 
low snow year. We didn't have near the snow that we would 
normally have. And this is a trend especially across the 
Arctic. And this year it's been unseasonably hot. In fact, this 
week in Alaska many records have been broken. And this is 
common as well in recent years.
    I left Alaska the other day to evacuation notices, so 
before I came here, we were planning to evacuate our house 
because fires were raging just near our house. And so the rain 
coming is a great idea. The whole State is suffering from smoke 
right now because there are so many fires really resulting from 
a chronic low-snow issue and having warmer temperatures that 
are really fueling the fires. And so this is a major issue for 
us, and it's become quite personal for me.
    Mr. Casten. So just last question for the whole panel, has 
anybody estimated how many people's homes are at risk because 
of this combination of sea-level rise, spreading wildfires, 
flooding in the Northwest? How many people do we need to be 
thinking about dealing with right now? Do we have any estimates 
of that answer, Dr. Moon?
    Dr. Moon. So I'm going to give you an estimate that's just 
a fraction of those things that you just asked about. This is 
just an estimate on homes. It doesn't include power plants, 
airports, military bases, anything else, just homes. If we're 
looking at 1 foot by 2035, that would be about 140,000 homes. 
If we're looking at 4 feet of sea-level rise, that's about 1.2 
million homes. If we're looking at 2 feet, that's about 300,000 
homes. So it's in the hundreds of thousands, and if we look at 
levels where we're reaching 6.5 feet of sea-level rise by 2100, 
we're looking into the trillion-dollar kind of mark just for 
homes. That's not other roads, other infrastructure, et cetera.
    Mr. Casten. And I would presume that's just coastal. That 
doesn't include Dr. Wolken's house that may be at risk----
    Dr. Moon. And it doesn't include wildfires or any of those 
other things that you mentioned that will be also addressed by 
addressing climate change.
    Mr. Casten. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair and Ranking Member. I 
guess my question deals across the board. We got all doctors 
here as witnesses, so the question I have simply, what Federal 
programs are most critical to gaining a greater certainty on 
the future change in ice sheets and those effects on sea level? 
So you can go in any order you want. Dr. Alley, you want to 
start?
    Dr. Alley. Right. It is interagency. The National Science 
Foundation provides so many of the people support, and they do 
the lead agency in Antarctica and in some other things. NOAA, 
we have to have what they are doing. NASA has been keynote not 
only on Operation IceBridge, which we have been talking about, 
but the satellite monitoring. The DOE has a role in modeling, 
and so I've hit a lot of the high ones, but it really is the 
interagency, the U.S. Geological Survey. When I gave the number 
on how rapidly the icebergs were breaking off when John Muir 
was watching, that number came from the United States 
Geological Survey. So it is having these wonderful centers of 
excellence that you have built that live in the U.S. Government 
and give us leadership, they are not localized in one place. 
They are in several agencies, and they work together, they know 
each other, and they can do this with support.
    Mr. Baird. Thank you. I'll remind you that Madam Chairwoman 
gave me 5 minutes, so we can spread that out.
    Dr. Bell. Well, I will echo the NSF for understanding why, 
NASA for monitoring how it's changing, the USGS for incredibly 
important measurements of the glaciers, DOE for modeling, and 
NOAA for lots of information about how the ocean is changing 
and what the fundamental tide gauges are doing.
    Mr. Baird. Thank you.
    Dr. Moon. You asked about narrowing our range of what's 
going to happen into the future. On the science side, 
integrating better observations and understanding of the 
physical system into our models, our models can't make up that 
information on their own. But I also want to reiterate that it 
is our mission's pathway that is going to make a tremendous 
difference in what that future number of sea-level rise and our 
future number for ice loss is. That's not the science part.
    Dr. Wolken. Yes, I just want to echo the comments of my 
colleagues here and really just add that we're doing this in 
Alaska already. We're getting as many people together as often 
as possible to try to solve some of these issues. The only way 
to really do this is through an interagency perspective. And 
there's really no other way to address such a large issue. And 
all of the Federal Government programs are critical to what we 
do.
    Dr. Pfeffer. OK. Well, again, I'm echoing what all of my 
colleagues have said, but I want to add to this. The problem of 
collaboration and communication between these agencies is not 
an easy task. One example, NSF operates on a principle that 
could be summarized as turn the brightest people loose on the 
most interesting questions. The fundamental function of NSF is 
to support these investigator-based science where each one is 
evaluated on its own scientific merits. It's not a mission-
driven agency in the way that, say, NASA is. That has 
produced--it's been extraordinarily successful by letting 
scientists decide on what's the best thing for them to study.
    But in a situation like sea-level rise, I think that more--
well, it's for climate change generally, not just sea-level 
rise, I think that a more coordinated approach is necessary. 
Back in the early 1970s the National Science Foundation had a 
brief program called RANN, Research Applied to National Needs, 
where basically a management structure was experimentally 
imposed on research programs. And it was a notable failure. 
Almost everybody that you talk to that knows about RANN say, 
oh, boy, yes, that was a bad time at NSF but not everybody.
    It's a little bit like the Manhattan Project. If the 
Manhattan Project had started out with the, you know, advisor 
saying, OK, we need to understand about atomic energy, all of 
you pick an interesting problem and go work on it and come back 
in 5 years, you know, that's not the way the Manhattan Project 
worked. And I don't think we're going to solve this problem 
that way either. I'm not talking about the magnitude of the 
project or how much money should go into it, but I am talking 
about coordination and the need for some really innovative 
thinking about how those agencies should interact because it's 
hard to steer scientists and, you know, it really is a herding-
cats problem.
    But particularly with all these agencies, there needs to be 
some really imaginative way of figuring out what gets done 
first and how long do we have to solve it. And I don't have any 
answers to that, but I think that's a really strong need.
    Mr. Baird. Thank you, and I'm out of time and I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chairwoman, for yielding. And 
I thank the witnesses for appearing today.
    It has been quite alarming to say the least to read your 
testimonies and also listen to the responses to some of my 
colleagues' questions here today. It is absolutely clear to me 
and it should be clear to everyone that we are at a tipping 
point of our Earth changing dramatically and irreversibly due 
to human-caused climate change. It's even more alarming that 
we're locked into 2-feet of sea-level rise--everybody seems to 
agree about that--and that, given the melting of the Greenland 
and Antarctic ice sheets, we could be looking at 11-feet of 
sea-level rise.
    And how you prepare for that is something that is really 
important to all of us and certainly to me in my home State of 
Virginia. We have a lot to contend with over that. We are home 
to Naval Station Norfolk, which is the largest naval base in 
the world, and Langley Air Force Base. They are already having 
to deal with the effects of sea-level rise and the effects it 
has on our national security. And I'm also the mom of two kids, 
and I worry about what kind of a planet we're leaving for them 
and their kids.
    I know that we had some questions about climate ice cover 
and sea levels and how they routinely change from season to 
season and over time. Some claim that this natural variability 
means we shouldn't be concerned with humans changing the 
climate.
    Dr. Alley, I know that Mr. Brooks asked a little bit about 
this and Dr. Pfeffer did give some explanation of what is 
actually happening. But, Dr. Alley, can you explain what the 
science tells us and why we should be concerned with the 
changes in ice and sea level and climate that we're seeing 
right now? What makes it different from what happened, you 
know, over the past 20,000 years?
    Dr. Alley. Yes. So thank you very much. It's wonderful that 
people take interest in what we do, you know? So, as you know, 
on a dry, hot summer day, you know, the hills of Virginia have 
always burned when there was a lightning storm. And because you 
know that, if you see kids headed out on a dry day with illegal 
fireworks, you were very worried about it. We know that people 
have always died, so we have metal detectors at the front of 
your building here. We know that climate has always changed, 
and that proves that climate is changeable. And you've never 
met the person who said the hills have always burned, so we 
won't worry about arson. But you have met the person who said 
the climate has always changed, so we won't worry about humans 
changing the climate.
    The climate has always changed proves that the climate is 
changeable. The climate change has always affected living 
things, which proves it's important. Climate has changed for a 
lot of reasons, but CO<INF>2</INF> has been especially 
important. And that points a finger at us. Now, if you were an 
arson investigator, you better know natural fires. You do CSI 
(crime scene investigation) fire. If you're a homicide 
investigator, you do CSI homicide. We do CSI ice. We do CSI 
climate. And we actually have very high confidence that what is 
going on now is human, not natural. If anything, over the last 
small number of decades nature has tried to cool it off a 
little, so how much of the warming has been us is a little bit 
more than all of it is the central estimate.
    But the fact that nature has done these huge things in the 
past, that when nature warmed a little bit, sea-level rose a 
lot. And then you say, well, we could cause a whole Ice Age of 
warming with our CO<INF>2</INF> in the future. And the last end 
of an Ice Age gave us 400-feet of sea level. There's 200 more 
left.
    So I believe that climate has always changed is a very, 
very strong argument to be concerned about what we're doing for 
climate in the same way that burnable hills make you nervous 
about arson. And when----
    Ms. Wexton. And related to that, Dr. Alley, in your 
testimony you discussed several studies that suggest that the 
IPCC report is overly conservative and underestimates the rate 
at which ice sheets are and will continue to melt.
    Dr. Alley. I have great difficulty finding any evidence 
that they are overly alarmist, and there certainly are things 
that point to the possibility that they have been low in the 
past. And, yes, that's fairly clear. When you look at the 
history of----
    Ms. Wexton. Can you discuss this current scientific 
research on estimates for tipping points for the Greenland ice 
sheet, Arctic ice, and Antarctica ice? What are the tipping 
points or what does the science tell us?
    Dr. Alley. So Greenland, as it gets thinner, it gets 
warmer. As it gets warmer, it melts faster and gets thinner, 
and at some point it will be committed to loss. It probably 
will melt fairly slowly. West Antarctica, if it starts doing 
what the glaciers in Alaska have done, the coastal glaciers 
have done, it could go very, very rapidly. We're cautiously 
optimistic that the sea ice in the Arctic will act like a dial 
rather than a switch, but we're not entirely sure of that. We 
are worried a little bit about circulation in the Atlantic and 
other places that act more like a switch or a tipping point. 
The National Academy of Sciences looked at tipping points in 
2013. They especially pointed to tipping points in ecosystems 
and in human systems. So at what point when people are stressed 
and they're having to move their houses or change what they do, 
at what point do the people become very mad and then tip into 
some other level of behavior. And so when you look, there are 
some physical tipping points, there are more ecological tipping 
points, and there may be a whole lot of people tipping points.
    Ms. Wexton. Thank you very much. I see my time----
    Dr. Alley. Thank you.
    Ms. Wexton [continuing]. Is expired. I yield back.
    Mrs. Fletcher [presiding]. Thank you. I'll now recognize 
Mr. Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair, and thank you, 
everybody, for being here for this important hearing.
    I want to focus at least the beginning of my time on 
adaptation and resiliency. I think it unfortunately seems like 
there's a lot that's sort of locked in that we're going to be 
dealing with over the next however many years. And I'll start 
with Dr. Pfeffer. What are you seeing or what guidance can you 
give us with respect to making sure that we can adapt as sea 
levels rise and that we're building more resilient 
infrastructure?
    Dr. Pfeffer. So I mentioned in my early comments I really 
am concerned with--in the work that I've done in the near term, 
the next 30, 40, 50 years where this constellation of factors 
has to be considered. One of the very interesting and extended 
conversations that I had was with a man named David Behar, who 
works for the San Francisco--the city of San Francisco as a 
coastal engineer. And one of the problems that they have to 
deal with are--it's a very large dike system that basically 
surrounds San Francisco Bay. And they need to know how far do 
they have to raise this dike system, which is extremely 
expensive? It's in the billions of dollars for a very small 
rise. And so it was not adequate to simply say, well, let's 
just be safe and figure on 10-feet of sea-level rise and then, 
you know--and you only get 1 foot and you've spent an awful lot 
of money.
    Mr. Gonzalez. Yes.
    Dr. Pfeffer. In the same sense, one of the questions--and 
this goes back to an earlier question about how many people may 
be displaced by sea-level rise. If you take an overly 
conservative number meaning let's take worse-case scenario and 
you draw a line on the coast saying, OK, this is going to be 
inundated by such-and-such a date, what happens to the value of 
those homes on the basis of that line that you've drawn? And 
the nearer in time you get, the more important that becomes. So 
you really have to have a tight bound on sea-level rise and a 
tighter bound to the nearer to the present that you get. We 
don't really have that yet. In some places we do, and it's--
very often is a group of scientists that live in a particular 
region like Hudson River, for example.
    Mr. Gonzalez. Yes.
    Dr. Pfeffer. San Francisco Bay is another example where you 
can look at all of the causes of sea-level rise, including 
things like isostatic depression or rebound in an area as--
partly as a result of large-scale things like ice sheets 
disappearing 20,000 years ago and partly local things like 
putting buildings on that land.
    Mr. Gonzalez. Yes.
    Dr. Pfeffer. There are a lot of different factors that have 
to be considered and different time scales you deal with 
different factors. And I think it's another thing that points 
to this interagency collaboration.
    Mr. Gonzalez. Got it.
    Dr. Pfeffer. But one of the things that I've tried to 
emphasize in the past is there's certainly a cost to neglecting 
sea-level rise, but there's also a cost to overestimating.
    Mr. Gonzalez. Yes. And I think that's actually a really 
important point is, you know, when we talk about resiliency and 
adaptation, there is a cost to all of this, right?
    Dr. Pfeffer. Yes.
    Mr. Gonzalez. And we can't completely ignore that. We can't 
be too conservative or too aggressive or----
    Dr. Pfeffer. That's right.
    Mr. Gonzalez [continuing]. You know, we're going to be 
wasting a lot of money.
    Dr. Wolken, if I could shift to you quickly, in your 
testimony you mentioned that in Alaska there are only three 
long-term continuous records of glacier mass for the entire 
State. Considering remote sensing and computer modeling are 
used to predict future scenarios due to the lack of ground-
based observational data, how reliable and accurate are remote 
sensors and computer modeling in measuring glacial melt and 
predicting future changes?
    Dr. Wolken. Yes, we're doing really well with these 
different tools, and I think, you know, one of the things that 
you can envision is if you go to the hardware store and you get 
a laser rangefinder, for instance, from the shelf and, you 
know, you do some home renovations at your house, well, that 
laser is actually quite accurate. It's a laser, and it's very 
precise and accurate. And we use tools like that to really 
gauge how the ice is responding. We use other remote-sensing 
tools to do similar things, to see how much it's changing in 
this direction. And those are incredibly useful, and that's how 
we do things. We do those with both airborne and satellite-
based assets.
    There is a need in places like Alaska where the topography 
is so extreme and where the changes are so great to actually 
have ground observations. And so when you're using these 
different remote-sensing tools, the resolution isn't quite 
there some of the times, and so having ground observations to 
validate in some way or to correct in other ways is really the 
way to go. And so more ground observations truly do help us. 
With a lack of that, we have no option but to use the tools 
that are in front of us, and really, remote-sensing-based 
opportunities are where it's at for us.
    Mr. Gonzalez. Great. Thank you, and I yield back.
    Mrs. Fletcher. Thank you. I'll now recognize Dr. Foster for 
5 minutes.
    Mr. Foster. Thank you, Madam Chair. And I'd like to thank 
really the Ranking Member and all Members of this Committee and 
the witnesses about the tremendous increase in the level of 
serious discussion that we're having on issues like this over 
the last 2 years.
    I think if you Google my name along with Greenland, you're 
led to a video of a previous witness who was a lawyer trying to 
convince this Committee that it was a matter of scientific 
debate whether or not it was a good thing that the Greenland 
ice sheet melted, OK? And so we're having a long-overdue and 
very high-quality discussion here.
    Now, my next question, how many of you knew Charlie 
Bentley? Wow.
    Dr. Alley. He was my Ph.D. advisor.
    Mr. Foster. Well, oh, wow. I grew up next door to Charlie 
Bentley on Lake Mendota in Madison, and, you know, and I 
remember sitting on his porch discussing what he did. You know, 
he would disappear every couple of years and study the ice 
sheet in Antarctica, which did seem goofy. And I think it's a 
lesson on curiosity-driven research, that this thing, over the 
course of his career, went from something that was done by, you 
know, sort of an eccentric professor to something that is now 
going to be an absolutely crucial thing in deciding how we 
deploy trillions of dollars of capital to try to mitigate the 
damage of this.
    Charlie passed away I think a couple years ago, and I 
understand there is a mountain named for him in Antarctica. 
Anyway, I was pleased to see the recognition among the 
Committee here.
    Now my next question I had is, what is known about the 
speed of response of the ice sheet system to changes in 
temperature? You know, there are natural experiments when you 
get volcanoes going off with a couple degrees swing for a few 
years, is that long enough to actually be seen in the response 
of the ice sheet?
    And the reason I'm asking this question is I think it's 
likely that we'll be able to decarbonize the U.S. economy. I 
think it is much less likely, you know, since we're 5 percent 
of the world population that we're going to be able to convince 
the rest of the world to decarbonize as quickly as necessary. 
And if that happens, then I think it's likely we'll be looking 
at things like albedo modification which has the potential of 
very rapidly changing the temperature. There's an article in 
Nature earlier this year that used state-of-the-art climate 
models to say, OK, you know, will it work or are we going to 
get cyclones and so on? And the first look was that it might be 
feasible.
    But they didn't, to my remembrance, model anything having 
to do with the ice sheet. And so I was worried that maybe there 
was sea-level rise locked in just due to the thermal time 
constants, that even if you rapidly bring down the temperature 
of the atmosphere, that it will take a while. And so what is 
known in modeling or in data about that issue?
    Dr. Bell. The ice sheets respond slowly--they're slow. I 
mean, when Richard and I started studying ice, we couldn't 
imagine they'd change as fast as they are today. I mean, 
Charlie actually--one of my first papers I wrote told me I 
couldn't write that they were going to change fast because even 
in the 1980s we couldn't imagine the speed at which we're 
seeing now. And now you can actually occasionally hear fear in 
scientists' voice because they are changing faster than Charlie 
thought they could when you grew up next to him, that we just 
couldn't imagine these thick pieces of ice changing, and he 
couldn't either.
    But now we know they're changing due to the ocean warming 
and the atmosphere. The atmosphere is a faster driver than the 
ocean. So it will--there's--we don't have a good handle on how 
fast it's going to respond----
    Mr. Foster. Do you have models that even make a decent 
approximation? Can you see, for example, in response to 
volcanic eruptions and the swing there, can you see changes in 
the rate of ice accumulation or de-accumulation?
    Dr. Alley. We can do a lot of it right and a lot of it not 
yet, and so I could brag on the progress that we've made and 
some of it with Charlie's help. And I could bore you or scare 
you with where we're missing, especially the couplings into the 
ocean. So if you start blocking the sun, what it does to the 
atmosphere is fairly straightforward. What that does to the 
ocean, which is interacting with the ice, is not at all 
straightforward, and that really needs work. And there is----
    Mr. Foster. Are these computing-limited problems or 
knowledge-limited problems?
    Dr. Alley. Yes, especially knowledge-limited. The computing 
is coming. We could use a little more, but it's primarily 
knowledge-limited.
    Mr. Foster. Yes.
    Dr. Bell. It also has to do with those measurements, our 
lack of knowledge of even what the ocean temperature is around 
Antarctica. We can look from space--we can measure the top of 
the ocean, but we're still so limited in understanding what's 
going on at depth, and that's what matters because the critical 
parts of the ice sheet that are really--the sensitive switches, 
those are down low, and we don't have the good measurements.
    Mr. Foster. Let's see. No, I'll abuse another 20 seconds. 
Yes, for the last----
    Dr. Pfeffer. Yes, I wanted to add, and it's already been 
mentioned that the IPCC's fifth assessment, their discussion of 
sea-level rise is very conservative. I was one of the lead 
authors on chapter 13, which is the sea-level chapter, and that 
discussion that we had about what number are we going to put in 
for our upper limit, and I remember that very vividly. And 
essentially what we did is we said we just do not know yet 
enough about the rapid tipping point mechanics to be able to 
attach a number to this rapid response.
    Mr. Foster. Thank you. And to the extent these are compute-
limited modeling problems, you're very welcome to use the 
supercomputers at Argonne National Lab in my district--I can't 
think of a better use for them.
    Dr. Pfeffer. Yes.
    Mr. Foster. Thank you. Yield back.
    Mrs. Fletcher. Thank you. I'll now recognize Ms. Stevens 
for 5 minutes.
    Ms. Stevens. Thank you, Madam Chair.
    We got to talk about the psychology here. I just went from 
another hearing on heat effects in the workplace and the 
overheating in the workplace from warehouses to fields and how 
that's impacting human health. We're willing the have the 
dialog on climate change.
    So, Dr. Bell, you had a chart that kind of showed the sea 
levels and made that point about your father's life. How long 
have we been able to actually talk about rising sea levels and 
their impacts on us? How has modern science been able to 
influence this discussion and the question of what we can 
actually do to combat this?
    Dr. Bell. The answer is, you know, people have been living 
with changing ice for a while, but the real understanding of 
the linkage between the changing ice--because people who live 
up near the mountains like the people who live in Alaska are 
very aware of the changing ice and the people who live at the 
beach. It's really I'd say in the last two decades that it's 
gotten very strong, that connection. In fact, back to your 
psychology point, it's really in the last decade that we're 
starting to see the conversation about the psychology of how we 
handle it.
    And it was only this year that--actually last month that 
the Earth Institute handled the--convened the first-ever 
conference on could we ever talk about managed retreat? What 
would that mean? How do we have that conversation? So in fact 
we are just opening this door of connecting the work that we 
all do on frozen stuff and beautiful places far away with what 
happens to our assets at the coast, to our beaches, to the 
naval ports, to the airports. We happen to like to build 
airports. You know, of the 10 impacted airports on the planet, 
five of them are ours because that's a good place. So we're 
just starting----
    Ms. Stevens. Well, and we're coming up with new terms, I 
mean, with these extreme weather events and what it means. And, 
you know, we can study the free-rider principle. We can study, 
you know, you start to think of like nuclear warfare or weapons 
of mass destruction and when faced with that threat and what do 
you as an individual do. What do you as a society do? What do 
we as a body of Congress do? What is it going to take for us to 
take this seriously?
    I'm in Michigan, and I don't have a lot of sea around me 
but I got a lot of lake. And this is going to impact us. You 
know, I stumbled across a video. What is a world without ice? 
Is it going to take a modern society to see a full city go 
underwater for us to take climate change seriously, for us to 
take rising sea levels seriously and the grand challenge that 
we actually can do something about it, that it's a uniquely 
positioned challenge for us as the great America to take on?
    So I don't know who else, with all your great expertise and 
your phenomenal science and all your great background can 
provide some guidance here, some common sense for us to not 
just talk about it but to do. And I don't know who can chime in 
here because we do this on recycling, with the plastics crisis, 
and what the individual can do, what the body can do, the body 
that we're currently in, and then on. Thank you.
    Dr. Alley. Right. So you raised very important questions. I 
wish we had good answers. But you know the Nobel Prize in 
economics, corecipient last year, William Nordhaus from Yale 
developed tools which allow decisionmaking or inform 
decisionmaking. And he showed that efficient response on 
climate change helps the economy, right? If you want a bigger 
economy with more jobs, you take actions that honor the science 
on this. Many of our medical professionals, through their 
organizations, have said this is a serious health issue, that 
actions that would reduce the warming will have health 
benefits. Our military leaders have been very clear on the 
national security issues of not dealing with this. So 
environment and ethics are actually in the direction of economy 
and employment, as well as national security and health. And we 
can see futures in which very expensive sea-level rise happens 
and large other changes happen, and we can see very bright 
futures where we use our knowledge.
    The Yale climate communications people have surveyed what 
America thinks about climate and climate science. Most 
Americans tend to accept climate science but not all. But many, 
many, many Americans are very excited by the solution space. 
And if you ask them should we solve it, even if maybe they're 
not sure there's a problem, they're happy to go look for 
solutions.
    Ms. Stevens. Yes.
    Dr. Bell. Representative Crist, I used to always show 
pictures of drowning Florida in my presentations. You know, I'd 
show how much I'd drown Florida. I drown Florida a lot. I 
decided I couldn't do that because it was depressing people, 
turning them off, and they were not listening. I see change--we 
have to move--before we drown Florida or New York where I'm 
from, we have to actually start thinking about how we as 
individuals--I very much worry about what I as an individual--I 
worry about my community I live in. I worry about my 
professional society, what we can do. And I'm very happy that 
you are asking--I worry about our local government, and I'm 
very happy that you are engaged--and it's essential that you 
take leadership on this, too, because we can lead if we step 
forward before we drown a city or a State.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Crist for 
5 minutes.
    Mr. Crist. Thank you, Madam Chair. I appreciate the 
opportunity. I have some very well-prepared questions that my 
staff has put together for me, but you've inspired me to kind 
of go off script. I am from Florida, and my colleague asked I 
thought an excellent question about, you know, what is it going 
to take before, you know, Congress takes concrete action, each 
of us as individuals do so.
    I live in St. Petersburg, Florida--it's on the west coast--
and have lived there since 1960. And I live downtown. My 
parents live in the northeastern part of the city. We both live 
on the coast. So when I drive to visit my parents, who, thank 
God, are still alive, I go along the coast and I can see the 
difference in the sea level in the bayou that they live on. And 
I have noticed it significantly greater in the past 5 years. 
And I don't think that's just an anecdotal thing. I think it's 
a real thing.
    You know, I previously served as Governor of my State, so I 
would travel the whole State quite a bit. And whenever I would 
go down to Miami, on Miami Beach in particular, there's a road 
called Alton Road. And Alton Road will flood when it's not 
raining. And I remember President Obama visiting south Florida 
and would talk about that example of, you know, the climate 
changing, the rising sea level. And so we Floridians get it 
because we've seen people drown a lot. And we're witnessing 
that occurring, you know, so it kind of freaks us out.
    And, you know, it seems to me that we need to figure out a 
way to sort of get off the dime. And I'm sure, given your 
illustrious professions and dedication to what you study that 
it's got to be frustrating for you as academics to not see a 
whole lot of action in this area.
    And I'm going to ask almost the same question but maybe in 
a different way. What kind of advice can you give us--as 
hopefully decent communicators to Americans--to motivate 
action?
    Dr. Moon. So I want to reiterate Dr. Alley's point in 
emphasizing solutions. I had an opportunity to give a TEDx talk 
to my community in January, and I emphasized the solution space 
of it. And I had a friend then a month or two later sent me an 
article about the U.N. report, which told you about all the 
horrible things that are coming down the Pipeline for us. And 
she said is this true? This seems really radical. And I said, 
yes, all the information in there is true. And she said, you 
know, this hasn't motivated me at all, but your talk did.
    So I want to emphasize that we need to be talking about 
solutions. That's motivation to people who don't even 
necessarily think about climate change because they wanted to 
be getting renewable energy, becoming energy independent, which 
is something that we can do with that sort of thing. The 
solution space is very inspiring. As Americans, we have led, we 
have innovated, we have created new paths for the world, and I 
think that we can convince people that we can do that in this 
space as well because, in fact, we can do that in this space.
    And then the one other thing that I want to say in this 
area, too, is that it's about encouraging people to talk about 
this and come together with each other, too. We simply don't 
talk about this enough. And if we talk about solutions, we can 
also think about how we're directly helping people. I mean, in 
the last couple weeks we've heard about hundreds of people 
being laid off from coal mining jobs because of bankruptcies or 
other problems the--in decline in coal. But if we're thinking 
aggressively about moving forward, we can think about how are 
we going to give these people other jobs? How are we going to 
support them as we're losing this industry instead of just 
putting our head in the sand as we lose this industry, which is 
hurting people on both sides.
    Mr. Crist. Well, if I could follow up, I have a little time 
left. In speaking about the solutions, what are the most 
obvious ones to you that you would be willing to share with us?
    Dr. Moon. Well, I'll tell you, I'm a scientist, so in my 
personal----
    Mr. Crist. Thank God.
    Dr. Moon. In my personal solution space, a lot of it is in 
communication. I don't envy you as policymakers and having the 
much more difficult job in discussing all of the elements, not 
just science, that go into your policy decisions. And 
unfortunately, many of the questions on those solutions lie on 
your desks. And I really would love to see us depoliticizing 
climate change so that all of you can spend your time 
discussing which of these solutions we're going to implement 
and how.
    Mr. Crist. Thank you very much. I yield back. Thank you, 
Madam Chair.
    Mrs. Fletcher. Thank you, Mr. Crist. I'm going to recognize 
myself for 5 minutes, and then we'll continue with the hearing. 
This has been a really great panel, so I want to thank all of 
you for the time that you've taken with us this morning. And I 
want to thank Ranking Member Lucas for holding the hearing. 
We've heard great questions and great answers.
    And there's a lot that I'd love to cover, but, Dr. Moon, I 
want to go back to something that you talked about in your 
opening. You were talking about sea-level rise and sort of 
potential possible rise levels. And you mentioned that it was 
going to be 2.5- to 3-feet potentially in the next 80 years, 
and that number would be higher on the Gulf Coast. As a 
Representative of Texas' 7th congressional District in Houston 
right off the Gulf Coast, that of course perked up my ears. And 
I would love to learn more about why this is, what is the best 
estimate for the Gulf Coast region? Certainly, all of our eyes 
are on New Orleans right now. All of us are focused on the 
impacts of hurricanes and overall sea-level rise on our 
coastline and the Gulf Coast. And so part of the question is 
why is it and also what can we do about it?
    Dr. Moon. There are a variety of things that determine sea-
level rise in your local spot. So where we're losing ice on the 
Earth makes a difference. You are going to be influenced 
differently by losing ice in Antarctica than Greenland. There's 
also the ways that ocean currents and atmosphere currents move, 
pushes oceans one way or another, and also what's happening in 
your local region as far as your land naturally rising or 
falling already. And that's a--land subsidence is something 
that we see broadly across the Gulf Coast.
    So there are these multiple different elements that all 
stack up to make what you in your individual city are going to 
see as far as sea-level rise. And it's quite consistent that in 
the Gulf Coast region we will be seeing substantially more than 
the global average over the--since roughly 1960, many areas 
along the Gulf Coast have already seen 8 inches or more, which 
is much more than the global average during those periods.
    Mrs. Fletcher. Thank you. That's helpful, helpful 
information. And something that we do talk about a lot and we 
talk about resilience and rebuilding a resilient 
infrastructure, there are a lot of issues, and I think it is 
top of mind in a way that it might not be for some other folks 
in terms of sea-level rise. But I think one consistent theme 
I've heard from every witness today is that we need more people 
doing the research, helping us get the information that we want 
to know so that we can make smart policy decisions and that we 
can know what we're dealing with.
    So I really want to put this out to the entire panel to 
talk about how we are recruiting and training the next 
generation of glaciologists and where there's room for us to 
help. What kind of policy can we implement here, what kinds of 
things can we do in addition to funding that would be helpful 
for you, and for anyone who wants to take that on and talk 
about what we can do to increase that number from 1,400 to--and 
maybe what number you think would be good overall.
    Dr. Bell. Well, there are 13,000 people who are members AMS 
just to give you an idea of what--who--and that's the American 
Meteorological Society, so who's working and worrying about the 
weather in the U.S. We have 13,000 people doing that, and we 
have 1,400 around the globe doing ice. So numbers should be 
higher than 1,400. Let me give you an order of magnitude.
    What can we do? I think it's partially making it so 
everybody can talk about the science and back to Twila's point 
about it not being politicized and also making it so--I think 
we're driving some of the young talent from the field because 
it seems like it's a hard place to be, not because it's hard to 
go to the field and see beautiful places but because it's hard 
because you're under attack.
    I think embracing science so we have within our communities 
science-based, evidence-based planning for the future I think 
will attract more people because young people want to make a 
difference in the world. And if they see there's science, even 
if you're studying how ice deforms and flows, is going to 
matter to what happens in your district, that's one way we can 
help attract it, by working on--even by holding this hearing is 
huge, but by working to ensure we have scientists intimately 
involved with developing the policy on how we're going to lead 
in the future.
    Mrs. Fletcher. Thank you. Would anyone else like to weigh 
in on that?
    Dr. Pfeffer. Yes, if I could add----
    Mrs. Fletcher. Dr. Pfeffer.
    Dr. Pfeffer [continuing]. A couple of comments to this. I 
mean, I think we're suffering to a certain extent from sort of, 
you know, the boiling frog syndrome of things changing around 
us at the moment at a rate which is, you know, gradual enough 
that we can say, oh, you know, this is just sort of natural 
variability or I remember something like this happening 20 
years ago. I think making climate change generally a reality 
for people involved, somehow bringing it out of sphere of 
scientists. You know, a news report will say, OK, here's a 
scientist in Antarctica who has done such-and-such and thinks 
this, and then they show the picture of an icebreak or 
something, which to the ordinary, you know, person on the 
street, it looks like these scientists are on a different 
planet. It's all kind of removed from them and--in the 
hypothetical.
    And somehow this link--and I think things like this hearing 
are creating this link that's not just scientists in this 
hypothetical space discovering this thing which can only be 
detected through sophisticated measurements but that it's 
actually happening in a way that everybody is feeling, and it's 
happening now. We're no longer waiting for the evidence that 
climate is changing. We've got it. We've got buckets of it. And 
that boils down to communication.
    And I've done a lot of public presentations. As was 
mentioned earlier, I was involved in the movie ``Chasing Ice'' 
and have done a lot of that kind of public communication both 
before and after, and very often I get questions from people 
about, you know, what can we do? And it can be very hard to 
answer that question, especially if they're asking what can I 
do personally about climate change because it just seems like 
such a big problem? And one of the things that I do say to them 
is, you know, things like installing fluorescent light bulbs 
and, you know, buying a more fuel-efficient car doesn't seem 
like much, but we did create the problem one airplane seat at a 
time, one car at a time, one truck at a time. And the 
individual action does matter if everybody does it. And so 
recruiting people to understand and accept that this is a 
reality is sort of the first step.
    Mrs. Fletcher. Thank you. I yield back my time, and I'm 
going to recognize Mr. Tonko for 5 minutes, who will then close 
the hearing. Thank you all very much for your time today.
    Mr. Tonko [presiding]. Thank you, Chair Fletcher, for what 
I think is a very important hearing. Thank you to the panelists 
for setting such a respectful tone for science, refreshing.
    I represent New York's 20th congressional District, upstate 
New York, and it's home to much innovative pioneering work, the 
topic before us. At Union College in Schenectady, for example, 
Professor Rodbell has been working for more than 30 years to 
document glacier fluctuations in the Peruvian and Ecuadorian 
Andes. Professor Rodbell and his students are conducting 
ongoing research on glaciation in the Andes with a specific 
focus on determining rates of current ice retreat compared to 
natural rates of ice retreat in the geologic past.
    At the University of Albany, Dr. Mathias Vuille, a 
professor in the Department of Atmospheric and Environmental 
Sciences, is researching climate impacts and glacier retreat in 
the tropical Andes. In February of this year, Dr. Vuille 
testified in a public hearing held by the New York State's 
Senate Standing Committee on Environmental Conservation. He 
noted that sea-level rise is resulting from warming of the 
ocean and added water mass due to ice melting glaciers and ice 
sheets in Greenland and West Antarctica. He noted in particular 
that sea-level rise is not equal everywhere and sea-level rise 
in the mid-Atlantic and New England coasts are much larger than 
the global average. He also emphasized that since we have no 
glaciers in New York State, impacts can seem far away and 
irrelevant, but glacial melt affects us nonetheless.
    So, Dr. Bell, can you describe the indirect impacts of 
glacial and ice sheet melt in States like New York that I 
represent that do not have glaciers?
    Dr. Bell. Well, thank you very much for that question. I'm 
also from New York, so--and the ones I'm going to speak of 
are--actually the nice examples are in New York because--
because of sea-level rise, the number of people impacted by 
Sandy was significantly larger because--because of that in New 
York it's about 9 inches in the last hundred years the sea-
level has--you can see the record right from the Battery. And 
you can see how many more homes were flooded, how many more 
people were impacted, and today, we're seeing that those are 
the homes that are actually being built up along the edge of 
the Hudson. It now looks like you're in New Orleans. The homes 
are being elevated right there in Haverstraw. You have homes 
that you could see in New Orleans.
    So that's the kind of impacts we're seeing. You're seeing 
that we've had Sandy. We impacted far more people, tens of 
thousands more people than we would have, and now we're 
responding to it.
    Mr. Tonko. Thank you for that. And what more can you tell 
us about the uneven distribution of sea-level rise across our 
country? What will sea-level rise look like, for example, on 
the East Coast versus the West Coast or in New York City versus 
Washington, D.C.? What are the wide-ranging impacts of sea-
level rise?
    Dr. Bell. The National Climate Assessment did a beautiful 
job of laying out those variations and going through the 
different parts of the U.S. and really explaining the 
difference. But briefly, each community has to worry about 
which ice sheet you're close to. If you're close to an ice 
sheet, it turns out it doesn't matter as much, so for New 
England, Greenland--Antarctica matters way more than Greenland, 
whereas the Representative from Florida is going to see both 
Greenland and Antarctica full on. So there's the proximity.
    Then there's how close you are to ocean currents. That's 
some of the change we've seen in New England is the warming 
ocean has impacted New England. And then the Representative 
from Virginia is seeing the tremendous impacts of local 
subsidence around Norfolk because you've withdrawn water, so 
the land is going down at 4 millimeters a year. You add that 
onto the sea level going up, suddenly, you have a problem.
    Mr. Tonko. And to anyone on the panel, what mountainous 
regions around the world are most at risk, and what adaptation 
measures can be taken to avoid large flows of environmental 
refugees?
    Dr. Pfeffer. If I could----
    Mr. Tonko. Yes, Dr. Pfeffer.
    Dr. Pfeffer [continuing]. Address that, there are potential 
for environmental refugees at sort of both ends of the 
hydrologic cycle. Let's discuss the Himalayas, for example. 
Earlier, I mentioned the various geologic hazards that people 
in the immediate vicinity of glaciers, these high valleys, high 
density of people in those valleys. As we go downstream, there 
are people who are very dependent upon runoff from those 
mountains for crop irrigation, so this goes out of Nepal and 
into India. And then the people on the coast--and Bangladesh is 
very often used as the example--that are at risk from sea-level 
rise.
    So everything from geologic hazards to changes in water 
supply to sea-level rise, each one of those has a population 
which is put at risk. And as far as mountainous regions where 
this really matters, certainly the Himalayas, also portions of 
South America, Alaska is subject to certain risks, but the 
primary influences there I think are going to be environmental 
on the changes in water and immediately coastal effects.
    But the people I think really in the Indian subcontinent, 
they're at very high risk, and that is a global problem. It's 
not just a problem for them, and I think that's probably very 
clear.
    Mr. Tonko. Thank you. Thank you very much.
    Look, that concludes, I believe, all who have chosen to ask 
the witnesses any questions. Before I bring the hearing to a 
close, I do want to thank this panel. Thank you so much as 
witnesses for testifying here before the Committee. And I want 
to thank both our Chair and our Ranking Member for hosting this 
hearing.
    The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses. And we ask that you 
respond as efficiently as possible.
    And then finally, I will say the witnesses are excused, and 
the hearing is now adjourned.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Richard B. Alley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Robin E. Bell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Twila A. Moon

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Gabriel J. Wolken

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. W. Tad Pfeffer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record




          Letter submitted by Representative Suzanne Bonamici
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          


                                 <all>
</pre></body></html>
